<html>
<title> - KATE MULLANY SITE; AMEND THE ANILCA; CONNECTICUT RIVER WATERSHED; AND CUMBERLAND ISLAND WILDERNESS</title>
<body><pre>[Senate Hearing 108-278]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-278
 
 KATE MULLANY SITE; AMEND THE ANILCA; CONNECTICUT RIVER WATERSHED; AND 
                      CUMBERLAND ISLAND WILDERNESS
=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 1241                               S. 1433

                           S. 1364                               S. 1462
                                      
                               __________

                            OCTOBER 30, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 -------

                      U.S. GOVERNMENT PRINTING OFFICE

91-435                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001










               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel














                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     7
Clinton, Hon. Hillary Rodham, U.S. Senator from New York.........    36
Francis, Sharon F., Executive Director, Connecticut River Joint 
  Commissions....................................................    31
Jones, Randy, Deputy Director, National Park Service
    Opening statement............................................     4
    S. 1241......................................................     9
    S. 1364......................................................    10
    S. 1433......................................................    11
    S. 1462......................................................    12
Leahy, Hon. Patrick, U.S. Senator from Vermont...................     3
McKeon, Sean, Executive Director, The Northeast Regional Forest 
  Foundation, Brattleboro, VT....................................    25
Miller, Hon. Zell, U.S. Senator from Georgia.....................     3
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     6
Neuhauser, Hans, Executive Director, Georgia Environment Policy 
  Institute, Athens, GA..........................................    20
Paxton, Gregory P., President and CEO, The Georgia Trust for 
  Historic Preservation..........................................    16
Schumer, Hon. Charles E., U.S. Senator from New York.............    38
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                                APPENDIX

Additional material submitted for the record.....................    41

















 KATE MULLANY SITE; AMEND THE ANILCA; CONNECTICUT RIVER WATERSHED; AND 
                      CUMBERLAND ISLAND WILDERNESS

                              ----------                              


                       THURSDAY, OCTOBER 30, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 10 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. There's supposed to be a vote at 10:05, but 
it's been now delayed until 10:30, so we'll go ahead and get 
started. Then if we're interrupted by the vote, why, so be it.
    At any rate, welcome. Welcome the witnesses to the 
subcommittee hearing. Our purpose is to hear testimony today on 
four Senate bills: S. 1241, a bill to establish the Kate 
Mullany National Historic Site in the State of New York; S. 
1364, to amend the Alaska National Interest Lands Conservation 
Act to authorize the payment of expenses after the death of 
certain Federal employees in the State of Alaska; S. 1433, a 
bill to authorize the Secretary of the Interior to provide 
assistance in implementing cultural heritage, conservation, and 
recreation activities on the Connecticut River watershed in the 
State of New Hampshire and Vermont; and, finally, S. 1462, a 
bill to adjust the boundary of the Cumberland Island 
Wilderness, and to authorize tours of the Cumberland Island 
National Seashore.
    So that's what we have today, and we certainly welcome the 
witnesses to be here. I think members are not able to be here 
right now, so, if we might, Mr. Jones, if you could go ahead, 
sir, Deputy Director of the National Park Service, for your 
administrative comments on these matters.
    [The prepared statements of Senators Chambliss, Leahy, and 
Miller follow:]
 Prepared Statement of Hon. Saxby Chambliss, U.S. Senator From Georgia
    Mr. Chairman, Cumberland Island is one of Georgia's ``Golden 
Isles,'' a 36,415-acre ecological and historical treasure trove that is 
home to birds, sea turtles, wild horses, and an abundance of other 
animals which inhabit or visit the island's pines, beaches, and rich 
wetlands. This pristine island off of Georgia's coast is one of our 
most important natural resources. As author Charles Seabrook has 
written, ``Cumberland's natural splendor, its unsullied beach nearly 
eighteen miles long, its big houses, its unfettered horses, its ruins 
of mansions and slave cabins, its little white church--all cast a 
mystique, an aura over the islands.''
    Cumberland is unique both as a National Seashore and a Wilderness. 
It is a magnificent island that wins the hearts of virtually everyone 
who visits its shore and forests. It is also unique in the wilderness 
system in that it bears the broad imprint of a rich and diverse human 
impact. Cumberland is not an ``ordinary'' seashore, and it is not an 
``ordinary'' wilderness.
    The historic structures on the island and the stories they tell are 
compelling. The legislative history shows that those sites were always 
considered an important priority when Congress made Cumberland a 
National Seashore and when it subsequently designated portions of the 
island as a wilderness and potential wilderness.
    Native Americans were attracted by the rich wildlife and settled 
the island nearly 5,000 years ago, leaving behind burial grounds and 
other evidence of human habitation. In more recent history, large 
plantations raised cotton, corn, and rice. Newly-freed African-
Americans bought homes and established the village of Half Moon Bluff. 
After the Civil War, descendants of Andrew Carnegie built or expanded 
existing homes, such as Plum Orchard Mansion and Dungeness. Congress 
recognized the value of preserving this rich natural and historical 
heritage and passed Public Law 97-250, which designated approximately 
8,840 acres of Cumberland Island as wilderness area under the National 
Wilderness Preservation System. Congress also authorized an additional 
11,718 acres to be designated as potential wilderness. This designation 
places strong restrictions on land usage to preserve the wilderness. 
However, this designation resulted in an unintended consequence where 
the wilderness area severely restricts access along the only routes 
leading to Plum Orchard and the other historic structures.
    As a result of the restrictions, the National Park Service reports 
that efforts to preserve these historic structures are hamstrung 
because it is both difficult and prohibitively expensive to transport 
crews and supplies to the sites of these historic buildings in order to 
perform regular and necessary maintenance and preservation work. 
Consequently, we may very well lose these extraordinary buildings 
simply due to neglect. Future generations of Americans would be shocked 
if they learned we lost these historic buildings to weather, termites, 
and age simply because we did not allow vehicles to use roads 
established over a hundred years of use.
    To use just one example, Plum Orchard, built in 1898, is at serious 
risk. Not only is it Georgia's largest historic house, it is part of a 
historic district placed by the World Monuments Fund on its 2004 list 
of the 100 most endangered sites. However, because of the wilderness 
designation, the National Park Service is unable to perform the work 
necessary to preserve this monument.
    Cumberland is also an island with an array of retained right 
properties. The retained rights agreements in many cases reflect the 
fact that some major land owners voluntarily agreed to property sales 
at bargain prices in order to facilitate the establishment of the 
National Seashore. Appropriately, those agreements allow the retained 
right holders and their families, among others, to use motorized 
vehicles along the access roads that are addressed in my legislation.
    So the issue is not whether vehicles will be on the roads--they 
will be, with or without this bill. This bill will not open a flood 
gate of new vehicle use. It will simply allow the Park Service to 
maintain the structures, and it will allow public visitors to see the 
historic sites in a practical way. Today, families with small children, 
the elderly, and others who cannot make a hike of many miles, are 
essentially left without a reasonable way to traverse the island to the 
historic properties.
    The evidence of the need for this bill is the fact that the 
historic buildings are in a perennial state of neglect, and public 
visitation to the buildings is for many citizens unattainable.
    Mr. Chairman, this bill, the ``Cumberland Island National Seashore 
Wilderness Revision Act of 2003'', addresses this dilemma by simply 
removing the main road, spur road to Plum Orchard, and North Cut Road 
from the wilderness designation and allowing their use at the same time 
designating 952 acres as potential wilderness on the southern end of 
the island so that there is no net loss of wilderness. The bill does 
not open up development or otherwise degrade Cumberland Island's 
habitats. By allowing the use of these roads, the Park Service can 
provide critical and necessary maintenance of the island's precious 
historical buildings, and allow more Americans to experience and 
appreciate the beauty and history of Cumberland Island. Let me be clear 
that this bill does not increase the number of people authorized to 
visit the island each year or allow increased tourist traffic on the 
island.
    This legislation gives us a rare positive preservation opportunity. 
The National Park Service will be able to better manage the island and 
preserve vanishing parts of our history while at the same time 
protecting and preserving our natural environment. Our proposal has 
gained the support of visitors to Cumberland Island, Georgia's Trust 
for Historic Preservation, and the National Park Service. Again, I 
would emphasize that this bill does not open up roads that are not 
already being used by motorized vehicles. It does not unleash a flood 
of new visitors. But it does allow ordinary citizens the chance to do 
the thing that author David McCollough has so often spoken ofto grasp 
the power of the history of this country by being able to see and touch 
and walk within the historic homes and buildings that tell the story of 
our country.
    It is my hope that this committee will be able to support this 
proposal as well.
                                 ______
                                 
  Prepared Statement of Hon. Patrick Leahy, U.S. Senator From Vermont
    Mr. Chairman, I am speaking today in support of the Upper 
Connecticut River Partnership Act which is currently before the 
Committee. This legislation will help bring recognition to New 
England's largest river ecosystem and help the communities along the 
river protect and enhance their natural, cultural and recreational 
resources. I am pleased to note that Senators Jeffords and Gregg are 
also original cosponsors of this bill.
    For years, our offices and our states have worked together to help 
communities on both sides of the river develop local partnerships to 
protect the Connecticut River valley of Vermont and New Hampshire. This 
valley is a scenic region of historic villages located in a working 
landscape of farms and forests. Historically, the Upper Connecticut 
River Valley has functioned cooperatively even though the River is the 
actual boundary between two states. The River serves to unite Vermont 
and New Hampshire communities economically, culturally and 
environmentally.
    Citizens on both sides of the river know just how special this 
region is and have worked side by side for years to protect it. The two 
states came together to create the Connecticut River Joint Commissions, 
which help coordinate the efforts of towns, watersheds and other local 
groups to implement the Connecticut River Corridor Management Plan. 
This Plan has become the blueprint for how communities along the river 
can work together, with the states of Vermont and New Hampshire and 
with the federal government to protect the river's resources.
    The Upper Connecticut River Partnership Act would help carry out 
the recommendations of the Connecticut River Corridor Management Plan, 
developed under New Hampshire law, but wit the active participation of 
Vermont citizens and communities.
    This Act would provide the Secretary of Interior with the ability 
to assist the States of New Hampshire and Vermont with technical and 
financial aid for the Upper Connecticut River Valley through the 
Connecticut River Joint Commissions. The Act would also assist local 
community efforts to continue cultural heritage outreach and education 
programs while enriching the recreational activities already active in 
the Connecticut River Watershed of Vermont and New Hampshire.
    The bill also will require that the Secretary of Interior establish 
a Connecticut River Grants and Technical Assistance Program to help 
local community groups develop new projects as well as build on 
existing ones to enhance the river basin. Over the next few years, I 
hope this bill will help bring new recognition to the Connecticut River 
as one of our nation's great water resources.
    I urge the committee to take favorable action on this legislation. 
Thank you.
                                 ______
                                 
   Prepared Statement of Hon. Zell Miller, U.S. Senator From Georgia
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to comment on S. 1462, of which I am a co-sponsor.
    Cumberland Island National Seashore is an invaluable historical and 
environmental resource in which all Georgians take great pride. Since 
1972, Cumberland Island has been entrusted to the federal government 
for the protection of its unique beauty for future generations to 
enjoy.
    The National Park Service has many different issues to balance 
while managing the island. The Park Service must protect access for 
island residents, protect the environment, facilitate visitor access 
consistent with federal laws and preserve the cultural and historical 
treasures on the island. That is a tall order--especially considering 
that the Park Service must do all of this on a budget of less than $2 
million a year.
    I co-sponsored S. 1462 because it will give all members of the 
public the opportunity to enjoy Cumberland Island by permitting 
reasonable access. Specifically, this bill will remove from the 
wilderness designation the 200-year-old main road, which is listed on 
the National Register, and two spur roads. This will allow access to 
numerous historic sites on the western and northern edge of Cumberland. 
Under this legislation, the majority of the wilderness on Cumberland 
Island will be preserved, and there will be an additional wilderness 
designation of 210 acres on the south end of the island.
    The National Park Service has been unable to draft or put into 
place a Wilderness Management Plan for Cumberland Island because of the 
lack of reasonable access to and use of these three dirt roads. The 
current wilderness restrictions against driving on these three roads 
make it nearly impossible for the National Park Service to use or 
maintain the historic buildings on the island. How are you, supposed to 
maintain buildings when the only way to reach them is by walking 10 to 
12 miles each way?
    One of these historic buildings is Plum Orchard. This mansion has 
30 rooms spread over 22,000 square feet in the middle of a 600-acre 
estate. In 1972, the Carnegie family donated its island property along 
with $50,000 to the National Park Service to be incorporated into the 
Cumberland Island National Seashore. The Park Service has tried 
numerous times to develop a public/private partnership to save this 
grand old house, but these attempts have failed because of the lack of 
reasonable access to Plum Orchard.
    Cumberland Island is an ideal, one-of-a-kind educational 
opportunity for school children, but those opportunities are being 
wasted because of the accessibility issue. The National Park Service 
helps school teachers create history lessons about the island, but 
there's little chance the students will get to see the historical 
treasures on the north end of Cumberland Island. They simply can't get 
there. I don't know of a school system in Georgia that can afford to 
rent a boat to ship their 8th grade Georgia History class to Cumberland 
Island's north end. I don't know of too many students or teachers who 
are willing to hike 12 miles each way to see the Plum Orchard mansion, 
the First African American Church and the High Point/Half Moon Bluff.
    While I'm on the subject of access, let me point out that the 
elderly and the disabled cannot enjoy these historically significant 
structures on the north end because of the wilderness restrictions. 
Every tax-paying citizen should have the ability to visit these sites 
without having to hike very long distances or obtain access to a boat.
    The purpose of this legislation is to allow very limited vehicle 
access to the northern part of Cumberland Island. In no way would this 
bill allow visitors to put their SUVs or motor coaches on a ferry over 
to the island for a day of joy riding up on North Cut Road. Visitors 
are not even allowed to bring a bicycle over to the island. Under our 
bill, the Park Service would continue to monitor the visitation to the 
island and there would still be a limit of 300 visitors per day. The 
bill would simply allow the Park Service to offer tours to the island's 
north end, or to contract out those services.
    This bill would allow everyone the opportunity to view all of the 
vastly different and historically significant structures located on 
Cumberland Island's north end, while also allowing the Park Service to 
more effectively maintain these structures for future generations to 
enjoy.
    When Cumberland Island was transferred to the federal government, I 
believe the intent of the families who owned it was clear. The land was 
to be preserved and the rights of the families were to be safeguarded. 
I think Cumberland Island is a great success story of private 
landowners and public interests working in harmony to save 
environmental, historical and cultural treasures.
    The island is the largest undeveloped barrier island in the United 
States, and our bill won't change that. Cumberland Island will remain 
undeveloped. It will remain the natural and historical treasure it has 
always been.
    Thank you again for allowing me to comment on S. 1462.

          STATEMENT OF RANDY JONES, DEPUTY DIRECTOR, 
                     NATIONAL PARK SERVICE

    Mr. Jones. I do ask that my statements be inserted into the 
record, and I'd be happy to summarize them, in the interest of 
time.
    Senator Thomas. It will be in the record.
    Mr. Jones. Do you want me just to go through all of them 
first, Mr. Chairman.
    Senator Thomas. Yes, sir.
    Mr. Jones. Okay.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to appear before you today to present the views 
of the Department on S. 1462, a bill to adjust the boundary of 
Cumberland Island Wilderness, and to authorize tours of the 
Cumberland Island National Seashore, and for other purposes. 
The Department strongly supports S. 1462.
    This bill would remove three roads--the Main Road, the 
Northcut Road, and the Plum Orchard spur from designated as 
wilderness or potential wilderness. Removing these roads from 
wilderness, which have existing vehicle traffic on them today, 
would allow the National Park Service, its concessioners, and 
permittees to have vehicular access to Plum Orchard, the 
settlement, and the beach at the north end of the island. S. 
1462 would also amend significant provision of the seashore's 
enabling legislation, expressly authorizing tours by 
concessioners.
    Conflict has encumbered the management of the Cumberland 
Island ever since the enactment of the wilderness designation, 
with the principal point of contention being a network of 
existing roads located within the wilderness and potential 
wilderness areas of the seashore which are legislatively 
designated in both areas.
    Mr. Chairman, I would like to add that we have tried for 
the last 20 years to make this legislation work, to implement 
and continue to have good public access and protect the 
resource, and we have not been successful in doing that, to 
date.
    At the time it enacted the Cumberland Island Wilderness, 
Congress expressly acknowledged the existing legal rights of 
island residents to use roads through the wilderness. This 
result has been conflicts between those wishing to uphold the 
vision of the wilderness of the island and those wishing to go 
about their lives on the island as they always have.
    One of these conflicts impose motorized tours through the 
wilderness provided by the Grayfield Inn. For many years, the 
owners of the inn have offered commercial tours on roads 
designated and potential wilderness. At present, we have been 
challenged, and it was suggested we should stop these tours, 
arguing that it is unlawful to conduct motorized tours in a 
designated wilderness. Some have also complained that the 
wilderness restrictions limit vehicular access to two of the 
nation's National Seashore's more noteworthy historic and 
cultural features, the Plum Orchard Mansion and the High Point-
Half Moon Historic District, an African American settlement.
    We have been trying, Senator, for several years to provide 
an appropriate adaptive use of the Plum Orchard facility, for 
example, so that we could bring in some private capital to help 
save and protect this nationally significant resource. And we 
have not been successful, for the main reason that potential 
bidders are not interested, because there is insufficient 
access to the site. And so finding an appropriate successful 
adaptive use, we believe, is critical to the long-term 
preservation of this nationally significant historic structure.
    The map that accompanies S. 1462 depicts an area of 
approximately 952 acres on the southern tip of Cumberland 
Island that would be newly designated as wilderness to offset 
the acreage in the High Point-Half Moon Historic District, as 
well as these three roads, which would be removed from wildness 
or potential wilderness. The National Park Service supports 
this concept of assuring that there is no net loss of 
wilderness at Cumberland Island.
    And I would like to add, as a final note, Senator, that 
there is precedent for this legislation that originated in this 
committee, in Alaska. It is the Arctic National Park, in the 
Anaktuvuk Pass area, where the Congress came back after 
designating the wilderness, and recognized that a off-road 
vehicle motorized trail was not appropriate in the wilderness. 
It was later removed from wilderness and alternate acreage of 
the development-loss concept developed by this committee, and 
we feel that this is consistent with that attempt in view of 
earlier action by this committee.
    Senator Thomas. Thank you. Mr. Jones, I'm going to 
interrupt you just a moment.
    Mr. Jones. Yes, sir.
    Senator Thomas. The Senator has joined us, and I'd ask if 
she has any comment, opening comment, or comment on her bill.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you for S. 1364 and to allow me to 
make a few comments this morning.
    This legislation is--we refer to as ``Lucy's Law,'' and it 
would authorize the Federal land management agencies in Alaska 
to provide limited financial assistance to the surviving family 
members of their ANILCA local-hire employees who might die in 
their line of duty. This legislation is named for Lucy O'Hara, 
the widow of Tom O'Hara, who lost his life on December 20, 
2002, while serving as National Park Ranger assigned to the 
Katmai National Park, in Alaska.
    This was a line-of-death duty. Tom O'Hara was 41 at the 
time of his death and left behind his wife, Lucy, and three 
children. In the year following Tom's death, Lucy and her 
family have been working to put their lives back together. They 
have relocated from Tom's duty station, which was in the 
village of Naknek, to the Anchorage area. But this is not a 
move that, I think, most people can appreciate. Naknek is a 
bush village in rural Alaska. It's not connected to any road 
system whatsoever. So for the O'Hara family, this is not an 
issue of renting a moving van and packing up the family in the 
car and moving; this is quite a considerable expense. The move 
cost the family about $14,000.
    If Ranger O'Hara was a career National Park Service 
employee from the lower 48, the Park Service could use existing 
government-wide authority to relocate his family back to the 
lower 48, at government expense. But Ranger O'Hara was one of a 
small number of Alaskans who were employed under the ANILCA 
local-hire program. These are noncompetitive appointments to 
individuals from the local area who have special expertise or 
special knowledge about a particular park, wildlife refuge, or 
forest. So the existing law does not give the Park Service the 
authority to relocate Ranger Tom's family to a location where 
they can essentially get a new start on their lives, so this 
legislation is essentially designed to set things right.
    This would put the families of ANILCA local-hire employees, 
like Tom O'Hara, on an equal footing with those career National 
Park Service employees imported to Alaska from the lower 48.
    And, Mr. Chairman, as you know, we, in the Senate, deal in 
matters of great financial importance, many times involving 
millions of dollars, or occasionally billions of dollars. This 
legislation does not have significant financial import. If it 
were enacted, it would involve a financial commitment of about 
$14,000, but that $14,000 will make a huge different to a 
family in my State, a big difference to that family that has 
already paid a supreme sacrifice.
    I thank you for your leadership and allowing this small 
bill to move forward that will have a big impact on one of my 
Alaska families--and thank you for your consideration.
    Senator Thomas. Thank you very much.
    We've also been joined by Senator Akaka. Any opening 
comments, Senator?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for scheduling this hearing.
    All four of the bills on today's agenda address important 
issues, and I look forward to learning more about each of them 
this morning.
    S. 1241 would designate that the Kate Mullany National 
Historic Site in Troy, New York. I understand that the site, 
which has been designated as a national historic landmark by 
the Secretary of the Interior, is an important part of the 
history of the American labor movement.
    I look forward to working with Senators Clinton, Schumer, 
and Chairman Thomas in addressing this issue raised with the 
National Park Service, so that we can move the bill through the 
Committee.
    S. 1364 is Senator Murkowski's bill to correct an 
unintended consequence of existing law so that the Department 
of the Interior would be able to pay certain expenses following 
the death of Federal employees in Alaska. I support the purpose 
of this bill, which I believe is non-controversial.
    S. 1433 would authorize the Department of the Interior to 
provide technical and financial assistance to help with the 
management of the Connecticut River watershed in Vermont and 
New Hampshire. I understand that there is strong local support 
from affected communities along the river in both States, as 
well as bipartisan support from the congressional delegation of 
both States. I know that the Park Service has raised concerns, 
in general, with pass-through rent programs, but I would like 
to work with the bill sponsors to try and address those 
concerns as we take up this bill.
    The final bill on the agenda is S. 1462, which would 
exclude certain lands, primarily roads, from wilderness 
designation at the Cumberland Island National Seashore, in 
Georgia. I know this proposal is controversial, and we will 
hear from witnesses on both sides of the issue. The removal of 
previously designated wilderness, especially within the 
National Park System, is always a concern to me. I look forward 
to learning more about this bill and the specific issues.
    I would like to add my welcome to all of the witnesses to 
the subcommittee, and I look forward to hearing that testimony.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    Thank you, Mr. Jones, if you'd care to proceed.
    Mr. Jones. Thank you, Mr. Chairman.
    One last comment on Cumberland Island. We have heard 
comments from some folks who have said that if we take these 
roads out of wilderness, it would create all kinds of new road 
traffic on those roads, and I just want to make sure that the 
committee understands that that is not the case. It is still an 
island, there are still heavy restrictions on access to the 
islands, and what we do see is to essentially allow the kinds 
of uses that have occurred in the past to continue so that the 
public can, in fact, have some access to the historic 
structures and recreation resources on this island, and to take 
those existing roads that have existing highway traffic out of 
the wilderness, which we think is an appropriate action.
    Moving on to S. 1364, a bill to amend the Alaska National 
Interest Lands Conservation Act, or ANILCA, Senator Murkowski 
very eloquently stated the position that we totally agree with 
and support. We strongly support this piece of legislation. And 
as she pointed out in her testimony, the key thing, from our 
point of view, is that this is allowing employees who were 
hired under special authority of ANILCA to have the same rights 
and benefits that any other Federal employee in Alaska already 
has. And under rule-making that was done by the Office of 
Personnel Management, interpreting ANILCA, that essentially 
waived several requirements of Federal personnel practices, 
their rule-making also essentially excluded some of the 
benefits that other Federal employees have, and so we think 
this is very equitable and very deserving. Since ANILCA was 
enacted, this would be the only case that this has happened, 
and we certainly hope that we will not have to use this 
authority again.
    The one main change we do recommend to the legislation is 
to clarify that this provision would be retroactive to include 
the widow of Ranger O'Hara, as far as the effective date on 
this legislation.
    Moving on to S. 1241, a bill to establish the Kate Mullany 
National Historic Site in the State of New York, the Department 
opposes enactment of this legislation. The bill proposes 
establishment of the Kate Mullany National Historic Site as a 
new unit of the National Park System. The site would comprise 
approximately one-twentieth of an acre in Troy, New York, and 
would include the southern half of a three-story brick 
apartment house now designated as the Kate Mullany House 
National Historic Landmark.
    The Department opposes enactment of this legislation for 
three main reasons. First, there are already authorities and 
mechanisms in place at the Federal, State, and local level to 
support the preservation interpretation of this historic 
landmark, and we feel it is being adequately protected at this 
time. And based on that, therefore, it has been our policy that 
areas already receiving adequate protection do not need to be 
added to the National Park System. And, third, to meet the 
President's initiative to eliminate deferred maintenance 
backlog, at this point, we, frankly, feel that we cannot afford 
these costs at this time.
    There is no doubt of the significance of Katherine Mullany, 
as a labor leader from the 19th century, and her leadership. 
Our biggest concerns are about the integrity of the site, the 
surroundings, the interior, and the structure. And, therefore, 
as well as being adequately protected now, we feel that this 
legislation is not necessary. Given the overlapping local, 
State, and Federal designations and active interest by 
nonprofit organizations, we feel the establishment of this area 
as a unit of the National Park Service would be redundant.
    Finally, on the S. 1433, the Upper Connecticut River 
Partnership Act, which would authorize the Secretary of the 
Interior to provide assistance in implementing cultural 
heritage, conservation, and recreation activities in the 
Connecticut River watershed, the Department appreciates the 
efforts of this commission and their exemplary work of the 
Connecticut River watershed. We have had a long working 
relationship with them, as have the other agencies in the 
Department of the Interior. However, we do oppose enactment of 
S. 1433 because it would necessitate the creation of a new 
Federal grant program focused exclusively on one particular 
watershed in one particular State. We feel it would be 
inappropriate for the National Park Service or the U.S. Fish 
and Wildlife Service to take on such new funding 
responsibilities at a time when we are trying to focus our 
resources in caring for existing areas.
    We also believe that there are other existing funding 
mechanisms within the National Park Service, the U.S. Fish and 
Wildlife Service, Department of Transportation, and other 
Federal agencies that can foster the type of partnership 
efforts in addition to this bill. So we feel that new authority 
and new earmarking of funds at this time is not appropriate.
    And so, at that point, Mr. Chairman, I'd be happy to answer 
any questions you have.
    [The prepared statements of Mr. Jones follow:]
  Prepared Statements of Randy Jones, Deputy Director, National Park 
           Service, on S. 1241, S. 1364, S. 1433, and S. 1462
                                s. 1241
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1241, a bill to establish the Kate Mullany National Historic Site in 
the State of New York. The Department opposes enactment of this 
legislation.
    The bill proposes establishment of a Kate Mullany National Historic 
Site as a new unit of the National Park System. The site would comprise 
approximately 1/20 of an acre at 350 Eighth Street, in Troy, New York, 
and would include the southern half of a three-story brick apartment 
house now designated as the Kate Mullany House National Historic 
Landmark. The bill would authorize the Secretary to acquire the site 
and additional real and personal property, to administer the site, and 
to enter into cooperative agreements with the Hudson-Mohawk Urban 
Cultural Park Commission and other public and private entities to 
facilitate preservation and interpretation of the site and related 
historic resources.
    The Department opposes enactment of this bill for three main 
reasons. First, there are already authorities and mechanisms in place, 
at the federal, state, and local level, to support the preservation and 
interpretation of the Kate Mullany House National Historic Landmark. 
Second, the National Park Service Organic Act (16 U.S.C. 1a-5) and 
National Park Service Management Policies 2001 state that areas should 
not be added to the National Park System if preservation and management 
alternatives exist. And third, to meet the President's Initiative to 
eliminate the deferred maintenance backlog, we need to continue to 
focus our resources on caring for existing areas in the National Park 
System.
    The building at 350-352 Eighth Street is the only surviving 
structure known to be associated with Catherine A. (Kate) Mullany--an 
immigrant laundry worker who organized and led Troy's Collar Laundry 
Union from 1864 through 1870. The Collar Laundry Union was one of the 
first all-female unions in the United States to operate over a 
sustained period. Mullany was recognized in 1868 and 1869 at the 
meetings of the newly formed National Labor Union both for her work 
with the Collar Laundry Union and for that union's support and 
financial contributions to striking union iron molders in Troy and 
bricklayers in New York City. Kate Mullany lived with her widowed 
mother and sister in an apartment on the top floor of 350 Eighth Street 
from 1869-75, inherited the house when her mother died in 1876, moved 
away, returned in 1903, and died there in 1906.
    The southern half of 350-352 Eighth Street was designated as the 
Kate Mullany House National Historic Landmark (NHL) in 1998. The 
building remained in private ownership until the spring of 2003 when 
the southern half (the NHL portion) was purchased by the New York AFL-
CIO on behalf of the newly established American Labor Studies Center, a 
501(c)(3) educational corporation.
    The 1997 National Park Service (NPS) theme study on American Labor 
History noted that the Mullany House should be considered further for 
inclusion in the NPS system because it illustrated previously under-
represented stories. A Reconnaissance Study, underway by the Northeast 
Region of the National Park Service in 2003, suggests that while the 
Mullany House is nationally significant, there are questions regarding 
the suitability and the need for NPS management. Additionally, the cost 
to operate the site and to provide adequate visitor services would be 
more than if the site was near an existing NPS unit where 
administrative functions could be shared.
    Section 8 of the National Park Service Organic Act (16 U.S.C. 1a-5) 
and NPS Management Policies (Management Policies 2001) state that 
studies evaluating the suitability and feasibility of areas proposed 
for inclusion in the National Park System ``shall consider whether 
direct National Park Service management or alternative protection by 
other public agencies or the private sector is appropriate for the 
area'' and ``identify what alternative or combination of alternatives 
would be most effective and efficient in protecting significant 
resources and providing for public enjoyment.'' In this instance, 
several authorities and mechanisms already exist for the protection of 
the Kate Mullany House and the public interpretation of her work and 
the larger story of the labor movement in the Hudson-Mohawk region and 
the nation as a whole. Given the overlapping local, state, and federal 
designations and active interest by a non-profit organization, 
establishing the site as a unit of the National Park System would be 
redundant.
    NPS acquisition or management of the Kate Mullany House is not 
recommended because funding and technical support for its preservation 
and interpretation are already available through the Hudson River 
Valley National Heritage Area, New York State's Hudson-Mohawk Heritage 
Area (RiverSpark), grant programs administered by the New York State 
Office of Parks, Recreation, and Historic Preservation, and existing 
non-profit organizations particularly the New York AFL-CIO and its 
American Labor Studies Center. The site has also received assistance 
and funding from the National Historic Landmarks and Save America's 
Treasures programs.
    Given the funding and personnel needs of existing units of the 
National Park System, the fact that the site has been purchased by the 
AFL-CIO, the existence of established authorities and mechanisms to 
support the preservation and interpretation of the Kate Mullany House 
National Historic Landmark, and direction from the NPS Organic Act and 
Management Policies that areas not be added to the system if 
preservation and management alternatives exist, we respectfully oppose 
enactment of S. 1241.
                                s. 1364
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1364, a bill to amend the Alaska 
National Interest Lands Conservation Act to authorize the payment of 
expenses after the death of certain federal employees in Alaska.
    For reasons related to the tragic death of a valued employee, the 
Department supports S. 1364 with one minor modification. With this and 
other provisions offered by the bill, we believe that a full measure of 
fairness and compassion is assured for families of this group of 
federal employees in Alaska. The Department would like to note that 
this is a unique case, limited to a certain small category of Federal 
employees in Alaska, and does not set a precedent for other categories 
of Federal employees.
    The need for this legislation came to light after a tragic accident 
last winter. National Park Service Ranger/Pilot Tom O'Hara, 41, was 
killed on December 20, 2002, when his plane crashed on the tundra in 
the Alaska Peninsula National Wildlife Refuge. Mr. O'Hara and his 
passenger, a biologist for the U.S. Fish and Wildlife Service were 
conducting a moose tracking survey in Alaska Peninsula NWR. His 
passenger was severely injured, but survived.
    Mr. O'Hara and his family lived in the small village of Naknek, 
Alaska, near his boyhood home where they were dedicated community 
members. His widow, Lucy, however wished to move to Anchorage, Alaska, 
to be closer to her family, and did so earlier this year at her own 
expense.
    Mr. O'Hara came to work for the National Park Service under a 
special authority in the Alaska National Interest Lands Conservation 
Act, (ANILCA), which authorizes Federal land managers to extend a 
hiring preference to those with special knowledge about a Conservation 
System Unit. In the parlance of the bureau, he was a ``local hire.''
    Under Federal Travel Regulation, when a federal employee dies 
outside the Continental United States, the Federal Government will 
reimburse the members of his or her household for the cost of 
relocating to their permanent residence. Alaska is regarded as outside 
of the Continental United States under this regulation. But, if a 
deceased employee is a local hire employee, the regulation does not 
authorize the Federal Government to reimburse the surviving family 
members for their relocation cost because the deceased employee's home 
town is deemed to be the local hire duty station. In the case of the 
O'Hara family, the government was not authorized to move Mr. O'Hara's 
widow and their children out of Naknek to Anchorage.
    S. 1364 would allow the Federal Government to reimburse the 
surviving immediate family for the cost of transporting the deceased 
within the State of Alaska for any employee who dies on or after 
October 1, 2002. It would also authorize the Federal Government to 
relocate the immediate family members to a community in the State of 
Alaska that is selected by the surviving head of household. To assure 
the O'Hara family is assisted by this legislation we recommend two 
minor amendments as follows: On page 2, line 14 strike ``pay 
reasonable'' and insert ``pay or reimburse reasonable''. On page 2, 
line 19 strike ``pay reasonable'' and insert ``pay or reimburse 
reasonable''.
    The reimbursable expense of the O'Hara move is approximately 
$14,000. The National Park Service believes there will be very few, and 
hopefully no more, instances where this bill's authority is needed. 
While the numbers vary, there are generally fewer than 150 local hire 
employees among all Department bureaus in Alaska (see report pursuant 
to P.L. 106-488). However, should this type of incident happen to a 
Department of the Interior local hire employee again, we would refer to 
this law to help the surviving family members.
                                s. 1433
    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on S. 
1433, the Upper Connecticut River Partnership Act, which would 
authorize the Secretary of the Interior to provide assistance in 
implementing cultural heritage, conservation and recreational 
activities in the Connecticut River watershed of the States of New 
Hampshire and Vermont.
    The Department appreciates the efforts of the Connecticut River 
Joint Commissions and their exemplary work in the upper Connecticut 
River watershed. Many local, state, regional and federal organizations 
have worked in partnership with the Commissions for many years to 
support numerous efforts to improve water quality, promote sustainable 
tourism, protect unique natural and rural resources, and improve 
recreational opportunities. However, the Department opposes S. 1433, 
because it would necessitate the creation of a new grant program 
focused exclusively on one specific watershed. It would be 
inappropriate for the National Park Service or the U.S. Fish and 
Wildlife Service to take on such a new funding responsibility at a time 
when we are trying to focus our resources on caring for existing areas 
and meeting the President's Initiative to eliminate the deferred 
maintenance backlog.
    While we certainly support helping to fund activities that conserve 
and enhance the cultural, environmental and recreational resources of 
the upper Connecticut River watershed, we believe that there are 
existing funding mechanisms within the National Park Service, U.S. Fish 
and Wildlife Service, and other federal agencies that can foster the 
type of partnership efforts envisioned in this bill. For example, 
technical assistance is available through the National Park Service's 
Rivers, Trails, and Conservation Assistance Program, while grants are 
available through the U.S. Fish and Wildlife Service's North American 
Wetlands Conservation Act Grants Program, the Department of 
Transportation's surface transportation programs or the National 
Oceanic and Atmospheric Administration's (NOAA) community-based 
restoration programs.
    The upper Connecticut River watershed encompasses 41 percent of the 
state of Vermont's total area and 33 percent of the state of New 
Hampshire's. It has been the subject of many past studies, including 
National Park Service (NPS) studies, which document its natural and 
cultural resources. The upper Connecticut River watershed was 
recognized by Congress in 1991 as part of the Silvio O. Conte National 
Fish and Wildlife Refuge; the refuge manages the Nulhegan Basin unit 
and sponsors education centers at the Montshire Museum in Norwich, 
Vermont as well as in Colebrook, New Hampshire and Turner's Falls, 
Massachusetts. The watershed also contains units of the National Park 
System including Marsh-Billings-Rockefeller National Historical Park, 
Saint Gaudens National Historic Site, and sections of the Appalachian 
Trail. The NPS Rivers, Trails and Conservation Assistance Program field 
office in Woodstock, Vermont has projects in the watershed, and the 
Hydropower Relicensing and Wild & Scenic River programs serve the 
region from the Northeast Region's office. There are 75 National 
Register Historic Districts in the 207 towns of the region. The 
Connecticut River was designated an American Heritage River in 1998, 
and is home to the Connecticut River Scenic Byway, designated by the 
States of Vermont and New Hampshire in 1999.
    The Connecticut River Joint Commissions was formed in 1989, uniting 
separate commissions that had been formed by the States of Vermont and 
New Hampshire previously. In 1997, working with 5 bi-state local 
subcommittees, they produced the Connecticut River Corridor Management 
Plan. From 1992 to 1999, through Congressional earmarks, the NPS 
provided $1.325 million to the Connecticut River Joint Commissions, as 
well as technical assistance, for work in the upper Connecticut River 
watershed. The NPS will continue as an enthusiastic supporter and work 
with the Joint Commissions. The agency, however, will not be able to 
provide the financial support that they seek.
                                s. 1462
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on S. 1462, a bill to adjust the boundary of the 
Cumberland Island Wilderness and to authorize tours of the Cumberland 
Island National Seashore, and for other purposes.
    The Department supports S. 1462. The bill would remove three roads; 
the Main Road, North Cut Road, and the Plum Orchard Spur, from 
designation as wilderness or potential wilderness. Removing these roads 
from wilderness would allow the National Park Service (NPS), its 
concessioners and permittees to have vehicular access to Plum Orchard, 
The Settlement, and the beach at the north end of the island.
    S. 1462 would also amend a significant provision of the seashore's 
enabling legislation to expressly authorize tours by concessioners. The 
enabling legislation currently states that the island shall be 
permanently preserved in its primitive state and no ``development . . . 
or plan for the convenience of visitors'' shall be undertaken that 
would be incompatible with preserving the island's natural resources. 
The bill provides that, notwithstanding this prohibition, the National 
Park Service may enter into concession contracts for tours of the 
island, thereby enabling the public to visit portions of the island 
that otherwise would be difficult to access.
    When President Reagan signed the act establishing the Cumberland 
Island Wilderness, he noted ``[i]ncluding areas [of Cumberland Island] 
into the National Wilderness Preservation System which do not meet the 
suitability criteria of the Wilderness Act System will necessarily 
create conflicts in management of the area.'' These words from 1982 
have proven to be prophetic. Conflict has encumbered the management of 
Cumberland Island ever since enactment of the wilderness legislation, 
with the principal point of contention being a network of roads located 
within the wilderness and potential wilderness areas at the seashore 
which are legislatively designated in both areas.
    At the time it enacted the Cumberland Island wilderness 
legislation, Congress expressly acknowledged the existing legal rights 
of island residents to use roads through wilderness to reach their 
property. The result has been conflicts between those wishing to uphold 
a vision of wilderness for the island and those wishing to go about 
their lives on the island as they always have.
    One of these conflicts involves motorized tours through the 
wilderness provided by the Greyfield Inn. For many years the owners of 
the inn have offered commercial tours on roads in designated and 
potential wilderness. Wilderness advocacy groups have vigorously 
opposed this use and dispute Greyfield's claim that it has a pre-
existing legal right to conduct the tours. At present some of these 
groups are seeking to stop the tours through litigation, arguing that 
it is unlawful to conduct motorized tours in designated wilderness. The 
Court has remanded the case to the NPS to decide whether Greyfield has 
a pre-existing right to conduct the tours and the NPS is in the process 
of doing so.
    Some have also complained that the wilderness restrictions limit 
vehicular access to two of the national seashore's more noteworthy 
historical and cultural features, the Plum Orchard mansion and the High 
Point-Half Moon Bluff Historic District (an African-American 
settlement). While Plum Orchard is accessible by water, neither of 
these sites is accessible by vehicle except by using roads that cross 
wilderness or potential wilderness. Under NPS policy, both designated 
and potential wilderness areas must be managed as wilderness, meaning 
that mechanized transport is prohibited subject to the limited 
exception of the Wilderness Act. Past efforts to lease Plum Orchard for 
adaptive re-use and preservation have not been successful, in part, 
because the principal access road, the Plum Orchard Spur, lies in 
potential wilderness. Finding an appropriate and successful adaptive 
use is critical to long-term preservation of this nationally 
significant historic structure.
    It is our understanding that part of the intent of the legislation 
is to enhance the ability of the NPS to maintain the cultural resources 
of the High Point-Half Moon Bluff Historic District by removing this 
area from potential wilderness. However, while this intent is apparent 
from the map that accompanies the bill, the legislation itself does not 
contain language that would expressly accomplish this result. We 
suggest that the bill be amended to remove this possible confusion. Our 
suggested amendment is attached to this testimony as well as some 
additional technical amendments.
    The map that accompanies S. 1462 depicts an area of approximately 
952 acres on the southern tip of Cumberland Island that would be newly 
designated as wilderness, to offset the acreage in the High Point Half 
Moon Bluff Historic District, as well as the three roads, that would be 
removed from either wilderness or potential wilderness. The NPS 
supports this concept of ensuring that there is ``no net loss'' of 
wilderness at Cumberland Island. In fact, support for S. 1462 is based 
in large part on the addition of these lands at the south end of the 
island to the designated wilderness.
    Potential costs associated with enactment of S. 1462 would include 
the cost of a feasibility study and environmental compliance that would 
be required before a concession contract would be awarded for tours of 
the island. This type of concessions study usually costs between 
$25,000 and $35,000. Other costs that might be required on NPS lands in 
order to support concessions operations, such as facilities, would be 
determined by this study. There might also be some costs associated 
with managing lands that will change designation under this bill but 
they are expected to be minor.
    That concludes my testimony. I would be pleased to answer any 
questions that you or other members of the subcommittee may have.
                          proposed amendments
S. 1462, Cumberland Island National Seashore Wilderness Boundary Act of 
        2003
    Page 2, line 5, strike ``640/20,038F, and dated April 2003'', and 
insert ``640/20,038G, and dated September 2003''.
    Page 2, line 11, insert a new paragraph, ``(4) POTENTIAL 
WILDERNESS--The term Potential Wilderness means the 10,500 acres of 
potential wilderness described in subsection (c)(2), but does not 
include the area at the north end of Cumberland Island known as the 
High Point-Half Moon Bluff Historic District.
    Page 2, line 24, strike ``approximately 210 acres of land 
identified on the map as `The Nature Conservancy' '', and insert 
``approximately 231 acres of land identified on the map as `Areas 
Become Designated Wilderness upon Acquisition by NPS' ''.

    Senator Thomas. With respect to this Connecticut River one, 
then, this is already, what, being worked on by a joint 
commission, is that correct?
    Mr. Jones. That's correct. There were two commissions, one 
in Vermont, one in New Hampshire, that merged into a joint 
interstate commission.
    Senator Thomas. And they, of course, can apply for various 
monies from the Department now?
    Mr. Jones. Yes, sir, that's correct, Mr. Chairman. In fact, 
the U.S. Fish and Wildlife Service has, in fact, granted grants 
to this commission and asked for some of their work for habitat 
protection and species management.
    Senator Thomas. As I recall, looking at this, it authorizes 
the appropriation of a million dollars per year, with no 
limitation on the number of years.
    Mr. Jones. That's correct, and that's one of the reasons 
we're concerned.
    Senator Thomas. Senator?
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Jones, most of these bills, for me, are pretty 
straightforward. However, S. 1462, the Cumberland Island bill, 
is, I feel, a little more complicated for me. I would like to 
ask a few questions with respect to your testimony on that 
bill.
    As I understand the purpose of the bill, Mr. Jones, it 
would exclude about 890 acres of previously designated 
wilderness within the National Seashore, including a 21-foot 
right-of-way running along the main road. The primary road in 
the--and that's a primary road in the seashore. It appears that 
the lands adjacent to the road will remain in wilderness 
status.
    I looked at the map of the park yesterday, and this island 
appeared to be very small. According to the map legend, the 
distance between the road and the far edge of the wilderness 
boundary is only a few hundred feet. If the road is excluded 
from the wilderness designation, and new motorized access is 
allowed, won't that have an effect on the remaining small 
wilderness area?
    Mr. Jones. We do not believe there will. We think that 
there has already--there exists today extensive motorized use 
and--extensive as far as the local concern, because a visitor 
going to the island cannot take their car out to the island. 
You can only get to the island by ferryboat. And so the 
vehicles that are out there are owned by local individuals, by 
the National Park Service. And under this bill, we would 
propose to allow a concessioner to also provide tours. And so, 
to the extent that there would be an increase in vehicle 
traffic, we think it would be very minimal over the vehicle use 
that is there today. And, therefore, we think it can be done in 
a manner that's compatible with the adjacent wilderness and, at 
the same time, as I mentioned earlier, would provide us an 
opportunity to preserve the historic structures on the island 
that we have just encountered numerous challenges trying to 
protect over the years.
    And I would note, as an example of where we have taken 
extraordinary efforts to try to make this work, is a few years 
ago we signed a 14-party agreement with all the stakeholders 
groups to try to lay out what is appropriate use, how it should 
work, and we feel that was a very good agreement. But, as we 
find in today's society far too often, is that even though we 
thought we'd identified all the stakeholders, we missed a 
couple, and we're being sued, saying that that agreement and 
its implementation is illegal. And that's going through the 
courts now. And should those groups prevail, it will actually 
result in a reduction over current use as it exists today.
    Senator Akaka. As you noted in your testimony, the bill 
authorizes commercial tours, notwithstanding section 6(e) of 
the park's enabling statute, which directs that the seashore, 
and I quote, ``shall be permanently preserved in its primitive 
state, and no development for the convenience of visitors shall 
be undertaken,'' unquote. Given that legislative purpose for 
the establishment of the National Seashore, why does the 
National Park Service, an agency charged with protecting this 
area, support a proposal which is clearly inconsistent with the 
park's authorizing legislation?
    Mr. Jones. Well, by--if this legislation and the amendment 
were enacted, of course, it would amend the enabling 
legislation and, we think, clarify it in an appropriate way. 
The northern end of the island, for example, has major historic 
resources, archeological resources. For example, the remnants 
of a 19th century African American community, and there still 
remains today a church and other buildings associated with that 
historic site that people like to get to and view a historic 
resource. And we think asking them to walk to get to it is not 
appropriate and that, therefore, limited--and I emphasize 
``limited''--access of the road to get to--allow the public to 
access these areas is important, and it's appropriate.
    Senator Akaka. Section 3 of S. 1462 authorizes the Park 
Service to enter into concession contracts to allow for 
commercial tours consistent with the relevant clause, including 
the Wilderness Act. Section 4 of the Wilderness Act states 
that, and I quote, ``there shall be no commercial enterprise 
within any wilderness area,'' unquote.
    Now, in your view, how is a commercial tour concession 
operation consistent with the Wilderness Act?
    Mr. Jones. Well, and I would say it's not, which is why 
we're recommending the road be removed from wilderness, so that 
we don't have that very conflict.
    Senator Akaka. Well----
    Mr. Jones. And because the concessions used--and, again, we 
would be more than happy to work with the committee to clarify 
the intent to keep the scope of it as very narrow, very direct. 
But the concept of having a concessioned use is to essentially 
allow the types of van tours that exist today and are operating 
today would be allowed to continue.
    Senator Akaka. Well, I thank you so much for your 
responses.
    Thank you, Mr. Chairman.
    Senator Thomas. Just as a matter of information, when this 
was designated, did these roads exist?
    Mr. Jones. Yes, sir, they did. In fact, when President 
Reagan signed the act into law, he raised, in his statement 
accompanying the signing of the legislation, a major concern 
that this was a conflict or a train wreck that was going to 
happen, and that's, in fact, exactly what has happened.
    Senator Thomas. All right, sir. Well, we thank you very 
much.
    And we'll go ahead, again, knowing there's going to be a 
vote here before too long. We'd like to ask the witnesses to 
join us at the table, please--Mr. Gregory Paxton, president of 
The Georgia Trust, Mr. Sean McKeon, executive director of the 
Northeast Regional Forest Foundation, in Vermont, Mr. Hans 
Neuhauser, director, Georgia Environmental Policy Institute, 
and Ms. Sharon Francis, executive director of the Connecticut 
River Joint Commissions.
    Thank you all for being here, and we appreciate it very 
much. I'm just going to follow the listing, as they were in the 
program here. So, Mr. Paxton, if you'd care to begin. And, for 
all of you, your total statements will be in the record, and if 
you would hold your comments to about 5 minutes, why, that 
would work well.
    Mr. Paxton.

STATEMENT OF GREGORY P. PAXTON, PRESIDENT AND CEO, THE GEORGIA 
                TRUST FOR HISTORIC PRESERVATION

    Mr. Paxton. Thank you, Mr. Chairman, ranking member Akaka. 
Thank you very much for this opportunity to testify today.
    I am president of The Georgia Trust for Historic 
Preservation. With nearly 8,000 members, we are one of two of 
the largest statewide nonprofit preservation organizations in 
the country. Our mission is to promote an appreciation of 
Georgia's diverse historic resources and provide for their 
protection and use.
    I've been actively involved in Cumberland Island at the 
trust and through serving on the Cumberland Island Historic 
Foundation since its founding in 1982.
    Cumberland Island is a large and complex island, with a 
rich natural and human history. A multitude of significant 
historic and cultural resources within the island's natural 
setting represents a unique opportunity to preserve and 
interpret the island's natural environment while conserving the 
island's historic resources. Save America's Treasures Program 
has designated Cumberland Island's diverse historic resources 
as nationally significant.
    When signing the original legislation, as was mentioned by 
the Park Service, both President Reagan and soon-to-be 
Secretary of the Interior, Donald Hodel, expressed concern and 
noted conflicting mandates between the wilderness and historic 
preservation laws governing this designation, and these 
conflicts remain unresolved. Cumberland Island has a rich 
5,000-year history of human habitation, including a Native 
American village, two 16th century Spanish missions, 450 
African American slaves lived there in 1850, and the 
southernmost fort in the 13 original colonies was located on 
Cumberland Island. The evidence of human habitation is 
everywhere on the island. Historic and natural resources are 
both important elements of Cumberland Island's past, present, 
and future.
    Managing part of the island so that it meets wilderness 
criteria in the future should not be carried out in a manner 
that prevents or undermines preservation, access, or use of 
current historically significant sites, and that is currently 
the case. S. 1462 will permit public access to numerous 
historic sites along the island's western and northern edge by 
removing from the wilderness the 200-year-old Main Road, which 
itself is listed in the National Register of Historic Places, 
and two spur roads.
    Legislation adds 210 acres, as has been noted. Private 
landowners have donated a hiking path in the middle of the 
island and in the middle of the wilderness designated area to 
provide a heightened wilderness experience.
    The intent of this bill is misrepresented by stating that 
its purpose is to benefit private and commercial interests. 
Under the current status, access to many historic resources is 
prevented to the vast majority of visitors because of the 
distances between the sites. And a survey of island visitors 
have indicated that they overwhelmingly want to see both 
natural and historic resources. This bill retains the island's 
natural areas while allowing provision of tours to these sites, 
including the average day-tripper and those unable to hike 
great distances.
    The lack of general accessibility also prevents viable 
attempts to adequately preserve and maintain the historic 
buildings, themselves. And three large historic structures, and 
more than half of the structures located in the northern 
historic district, have all been demolished by neglect or for 
other reasons since the designation of this area.
    S. 1462 will permit road access to the north end of the 
island, allowing visitation of the African American settlement, 
a late 1800's community, and an adjoining history cemetery, a 
rare, tangible link to the slaves who once occupied the island. 
In fact, the entire northern end of the island to be served by 
two of these roads is a National Register historic district.
    The bill will also facilitate preservation of the 1898 Plum 
Orchard. It is Georgia's largest historic house, which part of 
the Carnegie family donated with 12 acres in 1970 to help 
establish the National Seashore. The Park Service struggles to 
preserve it, and, as you heard, several recent attempts to 
establish a public/private partnership to assist have failed 
due to lack of reasonable road access, and that's what the 
third road in this bill provides.
    The current uncertainty about driving on these historic 
roads make using and maintaining historic buildings, such as 
Plum Orchard, which require continual upkeep, nearly 
impossible. The World Monuments Fund has recently listed Plum 
Orchard as a threatened building, joining only six listings in 
the United States.
    The island was designated a National Seashore in 1972 
because it offered such a wonderful mix of both natural and 
cultural resources. It was clearly intended that structures 
like Plum Orchard would be preserved and used.
    Private landowners, including the proprietors of Grayfield 
Inn, already have the right to drive on these roads through 
longstanding practice and retained rights with the Park 
Service. The general public does not have a right to bring or 
drive a car on the island now, nor will it under this bill. The 
goal of the legislation is to allow reasonable access under the 
aegis of the Park Service for members of the general public to 
the island's numerous historic sites.
    The proposed legislation is a compromise. It doesn't take 
into account all the areas that we'd like to see, but it's a 
reasonable compromise that balances the interests of wilderness 
advocates, historic preservationists, island residents, and, 
most importantly, Cumberland Island visitors.
    Georgia Trust for Historic Preservation strongly supports 
this bill, and we commend Senators Chambliss and Miller for 
their bipartisan leadership in forging a creative solution for 
Cumberland Island National Seashore.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Paxton follows:]
      Prepared Statement of Gregory B. Paxton, President and CEO, 
              The Georgia Trust for Historic Preservation
    Chairman Thomas, Ranking Member Akaka, and Members of the 
Committee, thank you for this opportunity to testify today. I am 
Gregory B. Paxton, President and CEO of The Georgia Trust for Historic 
Preservation. With nearly 8,000 members, the Georgia Trust is one of 
the two largest statewide, non-profit preservation organizations in the 
country. Our mission is to promote an appreciation of Georgia's diverse 
historic resources and provide for their protection and use. That is 
why I am here today to speak to you about Senators Chambliss' and 
Miller's legislation, Senate Bill 1462, the Cumberland Island National 
Seashore Wilderness Boundary Act of 2003. I have been actively involved 
in the preservation of the outstanding historic resources on Cumberland 
Island through my role at the Trust and through serving on the 
Cumberland Island Historic Foundation since it's founding in 1982.
    Cumberland Island is a large and complex island with a rich natural 
and human history. The multitude of significant historic and cultural 
resources within the island's natural setting represents a unique 
opportunity to preserve and interpret the island's cultural heritage 
while conserving the ecosystems and animal species that comprise the 
island's natural environment. The National Trust for Historic 
Preservation's Save America's Treasures program has designated 
Cumberland Island's diverse historic resources as nationally 
significant.
    The original legislation establishing Cumberland's wilderness set 
up a conflict between protecting the island's historic resources and 
its natural resources. In fact, President Reagan and his soon-to-be 
Secretary of Interior Donald Hodell noted conflicting mandates between 
wilderness and historic preservation laws when signing the act into law 
in 1982. The Wilderness Act prohibits any use of buildings within a 
designated wilderness area, but the National Historic Preservation Act 
calls for preservation of historic resources. These conflicts remain 
unresolved.
    In a letter dated July 12, 1982 to the Hon. James A. McClure, 
Chairman of the Senate Committee on Energy and Natural Resources, 
Secretary Hodell wrote:

          We have serious reservations as to whether the [Cumberland 
        Island] lands to be designated as wilderness under S. 2569 meet 
        the criteria set forth in the Wilderness Act. However, because 
        wilderness designation will help maintain the area in its 
        natural state to a greater degree than other environmental laws 
        alone, and because of strong public support for the wilderness 
        designation, we support enactment of this bill, if it is 
        amended to reflect the concerns noted below. However, the 
        requirements of section 106 [of the National Historic 
        Preservation Act] may well conflict with the designation of 
        these lands as wilderness, since the Wilderness Act defines 
        wilderness as ``natural'' and ``undeveloped'' in character and 
        devoid of ``permanent improvements or human habitation.'' 
        Maintaining the structures in perpetuity would seem to 
        frustrate the intention of Congress that these lands eventually 
        be designated as wilderness. At the same time, designating this 
        acreage as wilderness would seem to frustrate Congress' intent 
        that historic structures be preserved. We believe this apparent 
        internal conflict with S. 2569 should be resolved before the 
        bill is enacted into law. [Emphasis added]

    While Cumberland Island today is a barrier island with much of its 
land area returning to a natural state, the island also represents a 
rich 5,000-year history of human habitation, revealed in the island's 
landscape, archaeological remains and extant historic resources. The 
island has been occupied by Native Americans, Spanish and French 
explorers, the English Lord Proprietor of the Georgia Colony, American 
generals, enslaved and free African Americans, and more recently the 
Carnegie and Candler families and descendants. The evidence of this 
human habitation is everywhere from the Native American burial grounds 
and shell middens to the crumbling chimney pots and tabby ruins; from 
the 1890 freed slave settlement to the large estates with numerous 
outbuildings. These tangible traces of America's and Georgia's history 
warrant protection along with the areas that are re-growing wild around 
them. Historic and natural resources are both important elements of 
Cumberland Island's past, present and future.
    Throughout much of the last 200 years the vast majority of the 
island has been cleared and cultivated. Horses and pigs are among the 
dominant animal species on the island. In fact, the areas designated 
wilderness and potential wilderness do not currently meet the criteria 
for designation of wilderness, but contained in these areas are 
districts that do currently meet the criteria of historic significance. 
These districts should have their wilderness or potential wilderness 
designations removed in order to provide access for visitors and 
feasible preservation, maintenance and active use.
    Managing portions of the island with the goal of meeting wilderness 
criteria in the future is a worthy one. However, the designation or 
management of portions of the island to meet this future goal should 
not be carried out in a manner that prevents or undermines 
preservation, access to or use of current cultural and historic 
significant resources; and that is currently the case.
    S. 1462 will not prevent the island's natural areas from being 
preserved as wilderness. It will permit public access to numerous 
historic sites along the island's western and northern edge by removing 
from the wilderness the 200-year-old main road, listed on the National 
Register, and two spur roads. The bill leaves intact the vast majority 
of the acreage designated wilderness or potential wilderness, as a 
contiguous area in the middle of the island more than six miles long 
and two miles in width. Indeed, the legislation adds 210 acres to the 
wilderness, while removing less than 30 acres of roadbed. Though it is 
seldom used, private landowners have donated a hiking path in the 
middle of the island to provide an opportunity for a heightened 
wilderness experience.
    The intent of this bill is misrepresented by those who state that 
its purpose is to take portions of the island out of protective status 
to benefit private and commercial interests. Under the current status, 
access to many historic resources is prevented for the vast majority of 
visitors because of the distances between historic sites. Surveys of 
island visitors have indicated they overwhelmingly want to see both 
natural and historic resources. According to the CUIS Visitors Study, 
83 percent went to the Dungeness historic area and 64 percent visited 
the Ice House Museum. Sixty-two (62) percent of visitors, asked to list 
reasons for visiting the park, chose ``visiting historical areas.'' 
This bill protects the island's natural areas while allowing provision 
of tours to the island's historic and cultural sites for visitors, 
including the average day-tripper and those unable to hike great 
distances.
    This lack of general accessibility also prevents viable attempts to 
adequately preserve and maintain the historic buildings themselves. 
Three important historic structures listed on the National Register of 
Historic Places have fallen to the ground from neglect. These include 
the Dungeness Recreation Building, designed by the nationally 
recognized firm of Peabody & Stern, and the Plum Orchard Carriage 
House. In addition, more than half the 13 structures located in The 
Settlement, or Half Moon Bluff, and identified in the National Register 
of Historic Places nomination have been lost. Plum Orchard, despite 
expenditures of great public and private funds, has greatly 
deteriorated since its acquisition by the Park Service, although the 
Trust appreciates that this deterioration is now partially being 
addressed.
    S. 1462 will permit road access to the north end of the island, 
providing access to the historic African-American Settlement, a late 
1800s community made famous as the site of John Kennedy, Jr.'s wedding; 
and an adjoining historic cemetery, a rare tangible link to the slaves 
who once occupied the island. Nearby are Native American shell mounds 
in an area once containing a 1595 Spanish mission and Gen. Oglethorpe's 
1736 fort.
    The bill will also facilitate the preservation of 1898 Plum 
Orchard, Georgia's largest historic house, which part of the Carnegie 
family donated with 12 acres and $50,000 in 1970 to help establish the 
National Seashore. The Park Service struggles to preserve it, and 
several attempts to establish a public/private partnership to save the 
house have failed for lack of reasonable road access. The current 
limitations to driving on these historic roads make using and 
maintaining historic buildings such as Plum Orchard, which require 
continual upkeep, nearly impossible. The World Monuments Fund has 
recently listed Plum Orchard as a threatened building, joining only six 
(6) listings in the U.S. and 100 worldwide.
    The island was designated a National Seashore in 1972 because it 
offered such a wonderful mix of both natural and cultural resources. It 
was clearly intended that structures like Plum Orchard would be 
preserved and used. Many of the private owners of Cumberland Island 
have been instrumental in the preservation and protection of the 
island. They fought development proposals, lobbied for Seashore and 
Wilderness designations and donated, bargain sold or voluntarily sold 
their property to the National Park Service in order to preserve the 
island's historic and natural resources, as they were. These owners and 
former owners who retain rights on the island are not interlopers in 
the wilderness. They are its creators. Private owners have also 
preserved and continue to preserve many of the island's historic 
resources and their agreements with the Park Service provided for it to 
preserve the historic properties under its care.
    These private landowners including the proprietors of Greyfield Inn 
already have the right to drive on these roads through long-standing 
practice and retained rights with the National Park Service. The 
general public does not have a right to bring or drive a car on the 
island now nor will it under this bill. The goal of this legislation is 
to allow reasonable access under the aegis of the Park Service for 
members of the general public to the island's numerous historic sites.
    After thousands of years of often-intensive human occupancy, 
Cumberland Island is a rich and fragile combination of natural, 
prehistoric and historic resources that together make it a special 
place worthy of protection. S. 1462, the Cumberland Island National 
Seashore Wilderness Boundary Act of 2003 provides a more balanced 
approach to protecting the island's resources by providing access for 
the purposes of maintenance, preservation and limited visitation. The 
Subcommittee Report should make clear that this change to the 
wilderness designation is not to set a national precedent of de-
designating wilderness, but to rectify a legal conflict preventing 
preservation of the island's significant historic areas that has 
existed since the Cumberland Island designation was first considered.
    The proposed legislation is a compromise, as it leaves in the 
potential wilderness High Point, a National Register of Historic Places 
district with 14 buildings. But it is a reasonable compromise, 
balancing the interests of wilderness advocates, historic 
preservationists, island residents and most importantly, Cumberland 
Island visitors.
    The Georgia Trust for Historic Preservation strongly supports this 
bill and we commend Senators Chambliss and Miller for their leadership 
in forging a creative solution for Cumberland Island National Seashore.

    Senator Thomas. I think in order to have continuity, we'll 
go to the gentleman from Georgia now, Mr. Neuhauser.

   STATEMENT OF HANS NEUHAUSER, EXECUTIVE DIRECTOR, GEORGIA 
            ENVIRONMENT POLICY INSTITUTE, ATHENS, GA

    Mr. Neuhauser. Thank you, Mr. Chairman. Thank you for the 
invitation to testify.
    The existing Cumberland Island wilderness was established 
after 10 years of debate discussion. Support for the measure 
was bipartisan. The Carter administration endorsed the measure, 
and President Reagan signed it into law.
    The present bill is close to a secret. Few people, 
including Georgians, are aware of the bill, and even fewer have 
seen the map that accompanies it. Hardly anyone has seen the 
new map that the National Park Service proposes in its 
testimony today, as a substitute for the one referred to in S. 
1462. And the map is where the devil is.
    As people do become aware of the bill and its assault on 
the Cumberland Island wilderness, the opposition to it grows. 
For the record, I will submit a letter from a number of these 
groups who oppose the bill.
    Let me cut to the chase. The effect of S. 1462 goes far 
beyond the seemingly innocuous readjustment of Cumberland's 
wilderness map. The bill overturns the National Seashore's 
original purpose, to be permanently protected in its primitive 
state, and substitutes commercial tours as the paramount use. 
The bill strikes the existing Cumberland Island wilderness and 
its primitive legislative history, and creates a series of 
fragmented wilderness areas of far less value to the American 
people, reference the map to my right.
    By creating a second high-density-use area on the north end 
of the island, and by connecting the two high-use corridors, 
the main road and the beach, the bill will eclipse the public's 
opportunity to enjoy Cumberland's unique wilderness experience. 
Remaining wilderness areas will be fragmented and relegated to 
those areas left over after the island's development, reference 
the other map that's in your package.
    The bill expands existing valid rights of retained right-
holders to add new rights not currently held, including, 
without limit, the right to run tours from one end of the 
island to the other and on Northcut Road, which is presently 
part of the Cumberland Island wilderness.
    The bill trades a potential wilderness addition at the 
north end of the island for a new wilderness area in the south. 
This is not an equal trade, especially in terms of wilderness 
value. The proposed southern wilderness is an isolated, small 
fragment that consists largely of marsh and tidal creek 
inaccessible to the visitor. For the people who do manage to 
visit the area, the view includes a number of manmade 
intrusions, including three paper mills, the container cranes 
at a nearby port, two mile-long jetties, a fishing pier, and a 
19th century fort. The bill is an unprecedented and devastating 
assault on the national wilderness preservation system that the 
Congress has created for the benefit of all Americans and 
supposedly for all time. It suggests that this great American 
legacy hangs by the thinnest of threads, about to be undone by 
the self-serving interests of a few.
    We do not challenge the rights of those families who sold 
their land to become part of the National Seashore, nor do we 
challenge the National Park Service's administrative 
responsibilities to maintain the historic structures in the 
wilderness, as long as they use the minimum tools necessary as 
provided for in the Wilderness Act of 1964. What we do 
challenge is the sacrifice of the unique experience of visiting 
the Cumberland Island wilderness for the rather common 
experience of driving to see some old buildings. The National 
Park Service should not be obligated to allow or provide 
vehicular access to every site on Cumberland, any more than 
they should provide vehicular access to the top of every peak 
in the Grand Tetons National Park.
    The Cumberland Island wilderness created by Public Law 97-
250 does not conflict with historic preservation. Most of 
Cumberland's buildings lie outside of the designated wilderness 
and potential wilderness. Their degradation was not a result of 
wilderness designation.
    Yes, there are management challenges created by the 
retained rights held by life stakeholders, which will expire 
over time, and by the wilderness designation. These challenges 
were clearly recognized in the legislative history supporting 
Public Law 97-250. Also recognized in that legislative history 
is the evolution of the wilderness area as private retained 
rights were extinguished over time.
    The National Park Service can meet these challenges under 
existing authorities. It does so in Mesa Verde, for example, 
where the public chooses to walk into the wilderness to view 
some of the historic Native American structures and artifacts.
    Cumberland's unique wilderness experience will be gone if 
this bill is allowed to pass, and the national wilderness 
preservation system will be significantly weakened.
    Thank you.
    [The prepared statement of Mr. Neuhauser follows:]
       Prepared Statement of Hans Neuhauser, Executive Director, 
           Georgia Environmental Policy Institute, Athens, GA
                              introduction
    Thank you, Mr. Chairman, and thank you for the invitation to 
testify today on Senators Chambliss and Miller's bill (S. 1462) 
regarding Cumberland Island National Seashore.
    I am Hans Neuhauser, Executive Director of the Georgia 
Environmental Policy Institute located in Athens, Georgia. My testimony 
is being presented on behalf of The Wilderness Society, Wilderness 
Watch, The Georgia Conservancy, National Park Conservation Association, 
Georgia Forest Watch and Wilderness Watch Georgia Chapter.
    My familiarity with Cumberland Island began in the mid 1960s as a 
scientist studying the island's ecology for The University of Georgia 
and the National Park Service. I then became a citizen advocate for the 
establishment of the Cumberland Island National Seashore, assisting 
Congressman Stuckey in his promotion of the legislation that resulted 
in Public Law 92-536. Joining the staff of The Georgia Conservancy in 
1972, I became actively involved in the planning for the future of the 
island as a National Seashore. In that role, I helped design and 
promote the Cumberland wilderness plan which eventually became law in 
1982 (PL 97-250). I continue to be involved in discussions about the 
future of the National Seashore.
                     origins of the wilderness plan
    The wilderness plan for Cumberland Island evolved over more than a 
ten year period and included extensive public involvement along the 
way. There were public meetings, hearings, site visits, draft plans, 
revised draft plans and more site visits. The end product, the 
Cumberland Island Wilderness, was not casually arrived at.
    In November 1971, prior to the establishment of Cumberland Island 
National Seashore (CINS) in October 1972 (PL 92-536), and without 
extensive knowledge of the island, George Hartzog, the Director of the 
National Park Service (NPS), advanced plans for the development of the 
entire island to accommodate an expected 10,000 visitors a day. He 
provided no indication that the NPS had even considered any part of the 
island as suitable for wilderness designation.
    In 1973 and 1974, the Conservation Fund and The Georgia Conservancy 
conducted a follow-up study to the Fund's study, National Parks for the 
Future (1972). Teams \1\ were formed to examine park access, carrying 
capacity, environmental education and natural area protection. The 
latter team concluded that much of the island could qualify for 
wilderness designation.
---------------------------------------------------------------------------
    \1\ Team members were selected from a variety of stakeholder 
groups; they included the chairman of the Camden County Commission, the 
head of the Brunswick Pulp and Paper Company, a Professor from the 
University of Georgia, an environmental educator from the Savannah 
Science Museum and a former director of the U.S. Fish and Wildlife 
Service.
---------------------------------------------------------------------------
    In 1976, the NPS's initial response was to the effect that after 
developments in the north, central and southern portions of Cumberland 
to accommodate thousands of visitors a day, the leftovers would be 
proposed for wilderness designation.
    After consultation with members of the Georgia Conservancy and 
others, I developed an alternative wilderness plan which was then 
presented to the NPS and Representative Bo Ginn in 1977. At the request 
of President Carter, NPS Director Bill Whelan visited Cumberland on 
October 25, 1978 to resolve the two wilderness concepts: the 
``leftovers'' plan and ``the northern half of the island as 
wilderness'' plan. He listened to island residents and other local 
stakeholders. He talked with visitors who were hiking in the proposed 
wilderness area. Than afternoon, Director Whelan endorsed the new plan.
                         a bipartisan consensus
    The final plan for Cumberland's wilderness was a consensus plan 
that had bipartisan support. The Carter administration approved the 
plan. Congressman Ronald ``Bo'' Ginn (D-GA) introduced the bill (H.R. 
4713) in the House on October 7, 1981 and promoted its approval by the 
House. The House bill was then shepherded through the Senate with the 
active support of both Senator Mack Mattingly (R-GA) and Senator Sam 
Nunn (D-GA). The measure was signed into law on September 8, 1982 by 
President Ronald Reagan.
                         wilderness for people
    The Cumberland Island Wilderness established in PL 97-250 creates 
four areas on the island with differing levels of public visitation. 
The first area between Dungeness and Sea Camp supports the highest 
levels of public use. People access the island here. The on-island 
visitor contact points are here. The majority of the island's historic 
features are here. The Sea Camp campground is here.
    Adjacent to this high density use area are regions of medium public 
use. To the south, the area extends to the Jetty; to the north, the 
area extends to Stafford Beach and Hickory Hill.
    These three regions of high and medium visitor use (plus Plum 
Orchard) encompass most of the island's visible historic features and 
many of its archaeological features. Representative examples of 
Cumberland's major natural communities are also here: the beach and 
dunes, the maritime forest, fresh water ponds and sloughs and salt 
marsh estuary.
    North of Stafford to the tip of Long Point (and not including Plum 
Orchard) is the region of low density. It is this area that PL 97-250 
identifies as Wilderness and Potential Wilderness Addition areas, the 
latter to be added to the National Wilderness Preservation System when 
they qualify.
    It is in this low density area that a visitor will, when the 
retained rights expire, be able to have a wilderness experience where 
nature is dominant and where buildings, automobiles and roads do not 
intrude. Of course, the nature of the wilderness experience will be 
variable with each visitor. For me, the experience is exemplified as 
being on Cumberland's broad, white sandy beach, watching the sun rise 
seemingly out of the Atlantic Ocean. To your back is the Spanish moss-
draped live oak forest sculpted by the salt spray of the surf. To the 
north and south, the beach stretches away and eventually disappears 
over the curvature of the earth without a house or gazebo or automobile 
or light to interrupt your reverie. The noises you hear are natural: 
the surf, the wind, the whoosh of the dolphin, the mew of the gull, the 
territorial imperative of the woodpecker. This is a place of great 
spiritual value, a place for re-creation as well as recreation. It is a 
magical place, its beauty inspirational. Nowhere else in the world will 
a person a citizen without special connections or wealth be able to 
have the wilderness experience of the type offered by Cumberland. The 
wilderness experience is unique.\2\
---------------------------------------------------------------------------
    \2\ There are other barrier island wilderness areas in the National 
Park Service but their natural communities--and thus the experience of 
visiting them--are very different from Cumberland's.
---------------------------------------------------------------------------
    Those involved in crafting the Cumberland Island Wilderness 
recognized that over time, the intrusions of the retained rights 
holders would diminish and eventually come to an end.
                  impacts of the proposed legislation
    Senate bill 1462 proposes seemingly innocuous adjustments to the 
boundary of the Cumberland Wilderness. The true impact of the proposal 
is to return Cumberland's wilderness to the ``leftovers'' proposed by 
the NPS in 1976 and by so doing, eliminate the American public's 
opportunity in the not-too-distant future to have a wilderness 
experience on Cumberland. The bill will permanently do away with what 
is most special about Cumberland. It will do away with the best that 
Cumberland has to offer, and that no other barrier island does better.
    In the map accompanying Senate Bill 1462, the use of the north end 
of Cumberland is to be changed from ``Potential Wilderness Addition'' 
to ``historic district.'' A new region of high visitor use will be 
established in the area between Terrapin Point on the west and Lake 
Whitney and the beach to the east. This high use area will be connected 
permanently to the southern high use area by two high use corridors: 
the Main Road and the beach. The high density region will sprawl into a 
medium density area, further encroaching on the wilderness. The result 
will be the virtual elimination of the unique wilderness experience.
    Other consequences include the degradation of the primitive 
backcountry campsites at Brickhill Bluff and Lake Whitney. It also 
opens the door for the NPS to widen the Main Road from one lane (about 
10 feet wide now) to two lanes (21 feet) to accommodate both private 
and public tours.
    Another ``slight-of-hand'' feature of S. 1462 is the trade-off loss 
of the north end wilderness and the addition of wilderness south of 
Dungeness. These two areas may be close to being of equal acreage, thus 
satisfying a ``no net loss'' of wilderness. But the two areas are in no 
way equal in terms of wilderness value, where nature is dominant and 
man comes as a visitor. The proposed south end wilderness is mostly 
marsh and much of it is inaccessible to visitors. The intrusions of man 
are also far more evident, with three paper mills, the container cranes 
of a nearby port, two mile-long rock jetties and other features clearly 
visible.
               changing the purpose of cumberland island
    The law establishing Cumberland Island National Seashore is unusual 
for National Park enabling legislation in that the protection of the 
island's natural resources are paramount:

          . . . the seashore shall be permanently preserved in its 
        primitive state, and no development . . . shall be undertaken 
        which would be incompatible with the preservation of the unique 
        flora or fauna or the physiographic conditions now prevailing . 
        . . (Section 6b of PL 92-536).

    S. 1462 seeks to amend this to make concession tours \3\ supersede 
the ``permanently preserved'' mandate. By so doing, the primary purpose 
of Cumberland becomes concession tours and not preservation of the 
island's primitive state. Who benefits from this and who looses from 
this change?
---------------------------------------------------------------------------
    \3\ Strangely, the bill does not authorize the NPS to run its own 
tours.
---------------------------------------------------------------------------
                     recognition of retained rights
    The enabling legislation for both the Cumberland Island National 
Seashore and the Cumberland Island Wilderness recognize the legitimate 
rights of the individuals and their descendants who sold their land to 
the U.S. Government to become part of the National Seashore, and who 
received life estate agreements with the National Park Foundation and 
the National Park Service. These legitimate retained rights are 
specific and are defined in the deeds of record. The NPS is legally 
bound to respect these rights.
    To my knowledge, no wilderness advocate, then or now, seeks to 
restrict the legitimate retained rights contained in the deeds. The 
temporary intrusions in the wilderness experience, to terminate with 
the end of the retained rights agreements, were seen as part of the 
price the public had to pay in order to create that wilderness 
experience.
    What is of concern is both the expansion of those rights beyond 
those already held and the establishment of the new rights as 
permanent, as created in S. 1462.
                  historic structures in the north end
    There are historic structures on the north end of Cumberland. On 
that issue we have no quarrel with historic preservation. Nor is the 
argument over whether the structures can be maintained. To the extent 
that the NPS needs access to these structures for its administrative 
responsibilities, it can do so as it does historic structures elsewhere 
in the wilderness areas of the National Park System, or as the Forest 
Service, U.S. Fish and Wildlife Service and Bureau of Land Management 
do with respect to wildernesses they administer. Throughout the 
Wilderness System, agencies typically access such structures by non-
motorized means. If motorized access is necessary, the Wilderness Act 
already provides for it if such access is the minimum required for 
administration of the area for the purpose of that Act. It should be 
noted that Cumberland's relatively small size and flat terrain make the 
structures on the north end much more accessible than many of the 
structures the Park Service routinely accesses by primitive means 
throughout the park system.
    Regarding vehicular access by commercial vehicle, the issue is what 
is more important: providing a unique wilderness experience to the 
general public or allowing commercial tours? The National Park Service 
should not be obligated to allow vehicular access to every site on the 
island just as it is not obligated to provide vehicular access to the 
top of every peak in the Grand Tetons National Park or to Mount LeConte 
in the Great Smokies or to Native American dwellings in Zion National 
Park. Because almost all of the visible historic structures on 
Cumberland are located outside of the designated Wilderness and 
Potential Wilderness additions, visitors can easily access them. 
Visitors can visit the publicly-owned structures at the north end now 
with a commitment of time and effort.
                     wilderness preservation system
    The National Wilderness Preservation System was established to 
preserve the remnants of wild America in their natural condition. It is 
a legacy for all Americans, those alive today as well as the untold 
generations not yet born. Survey after survey have shown that one of 
the greatest benefits the American people derive from our Wilderness 
System, including the vast majority of Americans who may never visit a 
Wilderness area, is the knowledge that these areas have been set aside 
in perpetuity, that they will remain inviolate as time marches on. S. 
1462 is an unprecedented and devastating assault on this ideal. It 
suggests that this great American legacy hangs by the thinnest of 
threats, that the self-centered demands of a single private interest or 
handful of local residents can undo what the U.S. Congress has done for 
the benefit of all Americans and, supposedly, for all time. S. 1462 is 
a bad bill that deserves no ones support.
                             in conclusion
    This bill is not an innocuous re-adjustment of Cumberland's 
wilderness boundary. It changes the overriding purpose of the Seashore 
the provision of commercial tours of the entire length and breadth of 
the island, making them more important than ``the permanent protection 
of the island in its primitive state'' as called for in the 1972 
legislation establishing the Cumberland Island National Seashore. The 
bill relegates the wilderness to virtually inaccessible leftovers after 
the development of Cumberland for the convenience of visitors. 
Cumberland's unique wilderness experience will be gone if this bill is 
allowed to become law.
    Thank you for the opportunity to testify. I will be please to 
respond to any questions you may have.

    Senator Thomas. Thank you, sir.
    Mr. McKeon.

         STATEMENT OF SEAN McKEON, EXECUTIVE DIRECTOR, 
   THE NORTHEAST REGIONAL FOREST FOUNDATION, BRATTLEBORO, VT

    Mr. McKeon. My name is Sean McKeon, and I'm the executive 
director of the Northeast Regional Forest Foundation, in 
Brattleboro, Vermont, and I'd like to thank you, Mr. Chairman, 
for this opportunity to present this testimony.
    There are a lot of documents that I've sent down, and they, 
I hope, will be included in the record also with this 
testimony.
    The Northeast Regional Forest Foundation is a nonprofit 
education and conservation organization dedicated to promoting 
the wise use of natural resources in a free-market economy. Our 
directors include private consulting foresters who manage more 
than 60,000 acres of mostly private forest land, and almost all 
of that is in the Connecticut River Valley region. They have 
more than 50 years experience working in the forest-products 
industry, as well as more than 25 years experience working to 
educate the public through outreaches such as Vermont teachers 
tours, booths at the Champlain Valley Fair, Maine, teachers 
tours, legislative tours, public outreach in schools at all 
levels, from grammar school through high school, college, and 
also graduate school. They work with New England organizations 
across the region.
    Our directors have testified on a wide range of issues in 
Vermont and neighboring States, and have been invited to speak 
at the United Nations Academic Council on United Nations in 
Mexico City, in the summer of 2000.
    Our own media task, as a foundation, is to highlight the 
connection between America's stand of living, which we believe 
is the finest in the world, and the proper and sustainable 
utilization of our natural resources. Our foresters are both 
green-certified through the FSC program, and also SFI-certified 
through the Sustainable Forestry Initiative Program. We believe 
that the private sector is most able to meet the growing 
demands for natural resources, while at the same time protect 
the environment and the rural communities that produce the 
goods desired by the American people.
    Government, for all of its good intentions, cannot 
adequately address the problems and concerns of the local 
citizens, as well as those citizens, themselves. To a large 
extent, organizations that rely on government money, 
particularly Federal money, to promote their agendas and their 
prescription for largely private lands, operate in a vacuum, 
and they tend to alienate rather than bring together competing 
interests with respect to land-use decisions. The recent 
Champion Lands issue in Vermont is a case in point, and I have 
included a statement from our organization about how that 
played out.
    For me, Mr. Chairman, the most troubling aspect of S. 
1433--and on this, I would concur with Mr. Jones, from the Park 
Service, who just testified--is that it sets a precedent with 
respect to Heritage River sites, in our view. It's our 
understand that the Heritage River designations are honorary, 
and they're not supposed to be including appropriations of 
money, particularly for the potential of land acquisition, in 
these type of grants that can go to any number of 
organizations.
    If this bill passes, with an annual appropriation of a 
million dollars specifically for the Connecticut River, we 
believe it will open up the floodgates for requests of this 
committee to allocate funds for every single Heritage River 
designation in the country. And I believe, at last count, there 
were 14, although I think there may be something pending or 
being added as we speak.
    The enormous costs associated with setting a precedent here 
will exacerbate the current problems associated with river 
stewardship and make it more difficult for State and local 
governments to decide how best to protect and enhance their 
rivers and communities.
    In our opinion, the consideration of this bill is an 
excellent opportunity for this committee, the Senate, and the 
House to investigate how much money has already been spent on 
river conservation efforts, what have been the results of those 
efforts so far, and how many Federal agencies are already 
charged with river protection and monitoring, a detailed 
accounting of the duplication of efforts by Federal, State, and 
local agencies. Rather than throwing good money after bad, this 
bill highlights the need for a proper accounting of past and 
current expenditures before any new money is authorized to be 
distributed to organizations that have no mandate or authority 
to do many of the things that they are attempting to do.
    Of course, we will hear, from those that are supporting 
this bill, the need for conservation along our most precious 
river systems, how worthy and vital this effort is in 
safeguarding our river and valley resources, and we would not 
argue with the work that they do. Those are good goals, and we 
would not argue at all with that.
    But I think the essential questions for this committee with 
respect to S. 1433 are not whether we should conserve our vital 
God-given resources--all of us who live and work in this area 
believe that we should be preserving the environment and be 
good stewards--but what has already happened to the money 
that's been dedicated to this effort so far? And, second, what 
are the unintended consequences of establishing this precedent 
of annual appropriations of a million dollars or more, with no 
end in sight, without answering these questions first? 
Redirecting money to these types of organizations for these 
purposes will only serve to prevent real conservation efforts 
by agencies already charged to do so and, more important, 
discourage private efforts that a notable history of success.
    And I have just a couple more sentences, if that's all 
right, Mr. Chairman.
    My conversations with organizations and individuals in both 
New Hampshire and Vermont highlight the concern that they have 
about this bill and other pieces of legislation that directly 
impact our way of life in that area and our ability to conduct 
business in a reasonable manner. I've spoken with Vermont 
Traditions Coalition, Coalition of Sportsmen, including 
hunters, trappers, anglers, snowmobile clubs, motorized 
recreational organizations, Associated Industries of Vermont, 
the largest manufacturing organization in the State of Vermont, 
Vermont Farm Bureau, Vermont Forest Products Association, 
Vermont Forestry Foundation, the New Hampshire Timberland 
Owners Association, various manufacturing companies up and down 
that region, and all of them are concerned that once again 
their tax dollars are going to be used against them, when 
there's already myriad organizations, in duplication, charged 
with these tasks.
    And the rest of my remarks, I will include in the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McKeon follows:]
        Prepared Statement of Sean McKeon, Executive Director, 
       The Northeast Regional Forest Foundation, Brattleboro, VT
    My name is Sean McKeon; I am the executive director of the 
Northeast Regional Forest Foundation in Brattleboro, Vermont. Thank 
you, Mr. Chairman, for this opportunity to testify on the proposed 
bill, S. 1433. There are several source documents that I will reference 
today which I will make available to the committee for inclusion in the 
record.
    The Northeast Regional Forest Foundation is a non-profit education 
and conservation organization dedicated to promoting the wise-use of 
natural resources in a free-market economy. Our directors include 
private consulting foresters who mange more than 60,000 acres of 
private forestland--mostly in the Connecticut River Valley region, who 
have more than 50 years experience working in the forest products 
industry as well as more than 25 years experience working to educate 
the public through outreaches such as Vermont Teacher's conventions, 
Champlain Valley Fair, Maine Teacher's Tours, legislative tours, public 
outreach in schools, (at all levels including college/graduate) working 
with organizations across the New England region on issues that affect 
the natural resource based communities. Our directors have testified on 
a wide range of issues in Vermont and neighboring states and have been 
invited to speak at the United Nations Academic Council on United 
Nation's Systems in Mexico City in the summer of 2000. Our immediate 
task is to highlight the connection between America's standard of 
living (the finest in the world) and the proper and sustainable 
utilization of our natural resources. Our foresters are both ``Green'' 
certified through the Forest Stewardship Council's FSC program and the 
Sustainable Forestry Initiative (SFI) program.
    We believe that the private sector is most able to meet the growing 
demands for natural resources while at the same time protect the 
environment and the rural communities that produce the goods desired by 
the American people. Government, for all of its good intentions, cannot 
adequately address the problems and concerns of the local citizens as 
well as those citizens themselves. To a large extent, organizations 
that rely on government money (particularly federal money) to promote 
their agenda and prescription for largely private lands operate in a 
vacuum and tend to alienate rather than bring together competing 
interests with respect to land-use decisions. The recent Champion Lands 
issue in Vermont is a case in point. (See Foundation statement on 
Champion Lands)
    The most troubling aspect of S. 1433, Mr. Chairman, is that it sets 
a president with respect to Heritage River sites. It is our 
understanding that the Heritage River designation is an honorary 
designation that is not supposed to include appropriations of money, 
particularly for land acquisition. If this bill passes with an annual 
appropriation of $1,000,000 for the Connecticut River, it will open the 
floodgates for requests of this committee to allocate funds for every 
Heritage River designation in the country, and I believe there are 14 
such river designations at last count. The enormous costs associated 
with setting a precedent here will exacerbate the current problems 
associated with river stewardship and make it more difficult for state 
and local governments to decide how best to protect and enhance their 
rivers and communities.
    The consideration of this bill is an excellent opportunity for this 
committee, the Senate and the House to launch an investigation into how 
much money has already been spent on river conservation efforts, what 
have been the results of those efforts, how many federal agencies are 
already charged with river protection and monitoring, and a detailed 
accounting of duplication of efforts by federal, state and local 
agencies. Rather than throwing good money after bad, this bill 
highlights the need for a proper accounting of past and current 
expenditures before any new money is authorized to be distributed to 
organizations that have no mandate, or authority to do many of the 
things they are attempting to do.
    We will hear from those pushing this bill about the need for 
conservation along our most precious river systems, and how worthy and 
vital this effort is in safeguarding our river valley resources. But, 
the essential questions for this committee with respect to S. 1433 are 
not whether we should conserve our vital, God-given natural resources, 
(all of us who live and work in the natural environment believe in 
conservation and in being good stewards), but what has happened to the 
money already dedicated to this effort and what have been the results? 
And second, what are the unintended consequences of establishing this 
precedent of annual appropriations for the Heritage River program? 
Without answering these questions first, redirecting money to NGO's 
such as the Joint Commission and its allies will only serve to prevent 
real conservation efforts by agencies already charged to do so, and 
more important, discourage private efforts that have a notable history 
of success.
    My conversations with organizations and individuals in both Vermont 
and New Hampshire highlight the concern that many have about this bill 
and other pieces of legislation that directly impact our way of life 
and our ability to conduct business in a reasonable manner without 
undue regulations and burdens. All of those I have spoken to, Vermont 
Traditions Coalition (Coalition of sportsmen including hunters trappers 
and anglers), Vermont Farm Bureau, Vermont Forest Products Association, 
Vermont Forestry Foundation, New Hampshire Timberland Owners 
Association, and various manufacturing companies along the entire 
stretch of the Connecticut River Valley, agree that this bill is 
unnecessary and potentially dangerous as it changes the region's land-
use ethic from one where private ownership is foundational to 
stewardship to one where unelected and accountable individuals seek to 
control heretofore private property thorough a maze of quasi-government 
organizations and ``ad-hoc'' committees and groups. Many of the people 
I have spoken with are concerned that, once again, their own tax 
dollars are being used against them and the interests of their 
businesses and families. (I ask that the text of my full remarks be 
included in the record)
    As mentioned above, S. 1433 is not only duplicative of already 
existing programs and is, therefore, unnecessary, but will also reroute 
money that could be used by state and federal agencies for legitimate 
conservation efforts to organizations that have no authorization or 
legal right to dictate land use policy along the Connecticut River 
Valley. Money could be better-utilized funding local Natural Resource 
Conservation Districts, the Resource Conservation and Development 
Councils, filling gaps in the funding of federal programs in the 
Vermont and New Hampshire Agencies of Natural Resources, and federal 
programs in both states' Departments of Agriculture; programs and 
agencies created to achieve the stated purposes of this bill. There are 
so many on-the-ground projects that need funding, projects that will 
help sustain both the economy of our region and the ecology; Congress 
should look to fund those projects before it pours more money down the 
black hole of efforts such as this one.
    Fiscal restraint at the federal level is crucial with a deficit 
approaching half a trillion dollars. Priorities need to be set and it's 
hard to imagine that enlarging the scope, power and bureaucracy of the 
Commission and their political allies rises above the already 
staggering demands on the taxpayers of this country to fund education, 
healthcare, security and infrastructure to name a few. At a time when 
many political leaders in our country, including many on this 
committee, are calling for cost containment measures up and down the 
scope of government, it seems axiomatic that this type of federal 
expense should be far down on the priority list of programs funded with 
taxpayer money, since as has already been mentioned, the precedent set 
here will be duplicated across the country.
    Currently, there are more than 100 federal programs in eight 
different Cabinet-level departments and agencies charged with 
protecting rivers, rejuvenating the areas that surround them and 
stimulating economic growth. This number does not include state and 
local efforts, which add to the layers of bureaucracy and inefficiency. 
(For the record I would like to include a Heritage Foundation 
``Backgrounder'' entitled ``Navigating the American Heritage Rivers 
Initiative: Wasting Resources on Bureaucracy.'') Congress should take a 
closer look at these programs and ask the GOA to determine how much 
money is being spent by federal agencies on programs that are redundant 
or ineffective, before it allocates additional funds to support bills 
such as S. 1433.
    According to the language of the bill, S. 1433 will ``effectuate 
certain recommendations of the Connecticut River Corridor Management 
Plan'' which, according to the Plan include; ``a healthy ecosystem with 
no degradation as a consequence of human activity''; ``river shores and 
flood plains remain forever undeveloped''; ``primary agriculture lands 
remain permanently secure from development''; ``that a sustainable 
economy is developed in a manner that does no harm to our river''; ``a 
single 7-mile natural section for non-motorized boating"; ``gives the 
authority and responsibility for river protection, planning and permit 
reviews to the New Hampshire Connecticut River Valley Resource 
Commission of the CRJC [Connecticut Rivers Joint Commission] and the 
five local subcommittees.'' (Emphasis mine) This last item is 
particularly troubling since it posits the notion that an unelected and 
unaccountable organization will enforce its agenda and policies on 
landowners and communities along the Connecticut River Valley. This 
despite the fact that the Management Plan also states, ``Both 
commissions are advisory and have no regulatory powers, preferring 
instead to advocate and ensure public involvement in decisions that 
affect the river and its valley.'' (Connecticut River Corridor 
Management Plan Riverwide Part One.) The language used here; ``no 
degradation,'' ``permanently secure from development'', etc. invites 
the possibility of future, costly litigation when the Commission or one 
of its tentacle organizations decides a landowner is violating one of 
these ``recommendations.''
    Another troubling aspect of the proposed bill is that while it 
purports to be inclusive in terms of participation and input about the 
direction that conservation efforts should take in Vermont and New 
Hampshire, in reality the Connecticut River Joint Commissions 
represents a small fraction of so-called stakeholders, mostly 
organizations with a bias against traditional uses of the land such as 
forestry and certain recreational uses. Notably absent from the long 
list of recipients of grants the past two years are organizations that 
deal directly with forestry interests or sportsmen's organizations. 
(See list of grants for the record) Also, there is precious little time 
spent in the material from the Joint Commissions or in the Management 
Plan document dealing with the fact that most of the land in question 
is private land. There are myriad organizations representing private 
interests, and none of them seem to find there way onto the preferred 
list of organizations worthy of support. This is a most glaring 
paradox, in that while this bill calls for the protection of this 
natural heritage site, it neglects to point out in any meaningful way 
the contributions and importance of private ownership to conservation. 
Private conservation is an asset to the American taxpayers, not a 
liability.
    If this river valley is deemed worthy of this elaborate and 
expensive conservation effort, and all of the efforts to date, it is 
because those charged with its stewardship, the private landowners, 
have done an excellent job of conserving the land that they own. The 
private property mosaic that makes up much of the area in question is a 
fact no one can argue with. For example, voluntary programs such as 
Vermont's AMP's (Acceptable Management Practices) and New Hampshire's 
BMT's (Best Management Practices) are documented success stories. In 
fact, both New Hampshire and Vermont have excellent programs sponsored 
by their respective forestry and farm organizations that deal with 
landowner education and the principles of sustainability, including 
water resource issues along the river.
    This bill highlights the Congressional designation of the upper 
Connecticut River watershed as part of the Silvio O. Conte National 
Fish and Wildlife Refuge, but does not mention the concern and or 
opposition of farming organizations in surrounding states. According to 
the American Farmland Trust's document entitled ``Dialogues with 
Agriculture,'' the ``Massachusetts Farm Bureau was concerned that 
refuge lands (Silvio Conte) would increase crop damage on neighboring 
properties. The organization also was concerned about the effect of 
land acquisition on the local tax base.'' Vermont's Farm Bureau Policy 
(2003) 43 states in part, ``VFB believes that the designation of the 
entire Connecticut River Watershed as the Silvio Conte National Refuge 
has serious implications for farming and forestry. We support efforts 
that would:

          1) Remove farm and forest land from the refuge.
          2) Address the concerns of landowners and private property 
        owners.
          3) Protect agricultural and forestry operations in the 
        watershed from adverse impacts of refuge activities.

    Vermont Farm Bureau Policy (2003) 17 states, ``VFB opposes the 
Conservation and Reinvestment Act (CARA) or any similar acts and 
recognizes that private ownership of property is the foundation of a 
prosperous economy and a free society. VFB opposes expanded government 
ownership of working rural lands because of the threat to the resource 
base of the farm and forest industries, the threat to the tax base of 
many rural communities and in some cases, the threat to the survival of 
rural communities.''
    Two other aspects of S. 1433 and its effects on the tax base are 
noteworthy here. First, large acquisitions of land (either fee-simple 
or the purchase of conservation easements) by either federal agencies 
or non-profits exacerbate the economic distortions of increasing tax-
free or reduced tax paying property over tax paying property. According 
to the recent World Bank paper on ad valorem taxes this is exactly the 
wrong direction to go with respect to emerging and struggling 
economies, and be assured, Mr. Chairman, the economies in this region 
are struggling. The World Bank recommends government agencies and non-
profits should submit their land to appraisal by local listing 
agencies, and should pay full ad valorem market based taxes for 
everything except uses such as schools, municipal offices, etc. (World 
Bank, Reform Toward Ad Valorem Property Taxes in Transition Economies, 
June 2000.) With nearly $3,000,000,000 valuation excluded from taxation 
in Vermont alone, the distortion imposed on private tax rates is very 
aggressive. Add to this valuation problem a proposal such as H.R. 7 in 
the House, (which would give landowners a 50% reduction in capital 
gains taxes if he sells to a non-profit or government agency) and the 
fact that this bill proposes $1,000,000 a year for potentially more 
land acquisition, and private conservation efforts will grind to a 
halt. Even without HR7, $1,000,000 a year for acquisition is a lot of 
money and sets a dangerous precedent for other Heritage River sites 
across the country.
    In short, this proposed piece of legislation is totally unnecessary 
and will create an enormous drain on the already scarce resources of 
our federal agencies. The stated goal of the Connecticut River Joint 
Commissions, as stated in the Connecticut River Corridor Management 
Plan is to, ``assure responsible economic development and sound 
environmental protection.'' How they plan to ``assure'' those goals is 
a question causing much concern. Further, as we have already seen there 
are myriad federal and state agencies charged with this task and adding 
an additional layer of bureaucracy and expense is not prudent when many 
questions remain about the current situation regarding river 
stewardship and conservation efforts at the state, local and federal 
level.
    Many organizations and individuals who live and work in the 
Connecticut River Valley are wondering why they are constantly faced 
with new and well-financed threats to their livelihoods and way of 
life. Remember, S. 1433 is one of many pieces of legislation (proposed 
or passed) that seeks to direct money to organizations that see the 
eventuality of mandatory regulations as the only way to gain what they 
cannot gain at the ballot box, de facto control of all activities on 
private land stretching from Connecticut to Canada.
    In a brief conversation I had with Sharon Francis from the 
Connecticut Rivers Joint Commission about this bill, she told me that 
in 14 years of work she has never had anyone opposed to the work that 
she and her group propose. In all due respect to Ms. Francis, it is 
long past time that this Congress, particularly in light of its 
overwhelming responsibility and commitment to the security and safety 
of our fellow Americans, says ``no'' to this type of spending scheme 
and allows the citizens of Vermont and New Hampshire to address the 
issues raised here amongst themselves and with input from all affected 
parties.
    Thank you for this opportunity to testify against S. 1433. I will 
provide the committee with all relevant material referenced here today.

    Senator Thomas. Thank you very much. I appreciate it.
    Ms. Francis.

STATEMENT OF SHARON F. FRANCIS, EXECUTIVE DIRECTOR, CONNECTICUT 
                    RIVER JOINT COMMISSIONS

    Ms. Francis. Thank you very much, Senator Thomas and 
Senator Akaka. It's a pleasure to be here with you.
    I am Sharon Francis. I'm the executive director of the 
Connecticut River Joint Commissions, and I advocate the 
measure, S. 1433, and would like to share with you why.
    And, first of all, however, I'd like to give you a little 
description of the area that we're talking about so you can 
begin to get a feel for the Connecticut River of New Hampshire 
and Vermont.
    This is the preeminent argument that while the river 
legally belongs to New Hampshire, well over half of its 
watershed lies within Vermont and comprises two-fifths of that 
State, as well as a full third of neighboring New Hampshire. 
The river is a living thread that binds together the people of 
both States in one valley.
    The upper Connecticut River is what you would consider 
authentic New England, of small towns, expansive farmlands and 
forests, with a river that flows free in some sections and is 
harnessed by dams to provide power in others. It's a place 
where fishermen find some of the best wild trout fishing in 
this whole country, and where valiant efforts are slowly 
bringing back the great migratory Atlantic salmon. The soils 
are the finest ag soils in the Northeast. Tourists marvel over 
the white steepled churches, the town greens, handsome brick 
mill buildings that are now finding new uses in the 21st 
century. Cooperation across the river is a way of life for 
people who live in the valley but frequently have jobs, family, 
or schooling on the other side of the river.
    This common geographic heritage took new form in the late 
1980's, when valley residents on both sides of the river 
lobbied their State legislatures for a pair of commissions to 
work together to preserve and protect the valley's resources 
and guide growth and development. Both legislatures responded 
affirmatively, and the result is our Connecticut River Joint 
Commissions that, for the last 14 years, has fostered a unique 
approach to bi-State cooperation and local empowerment. Both 
commissions are advisory and have no regulatory authority, nor 
would they want to be, preferring instead to educate and 
empower local stewardship and leadership.
    Additionally, the legislatures authorized the commissions 
to form bi-State local river subcommittees comprised of people 
of diverse backgrounds, all of whom are nominated by the select 
boards or sitting councils of their riverfront towns. This 
network of unified commissions and five unified bi-State local 
river advisory committees has provided a set of forceful 
quorums for developing initiatives and addressing issues and 
opportunities.
    One of our first initiatives was to create the Connecticut 
River Partnership, a program of small grants that is at the 
heart of our work . . . empowerment of local talent, and 
leadership, and our success. Each year, we ask for proposals of 
local projects aimed at implementing the Connecticut River 
Corridor Management Plan and the Connecticut River Scenic Byway 
Plan. We pick good projects and good people, and our trust in 
them has been more than repaid by their accomplishments.
    In our formal statement, there is appended a list of 
partnership projects last year. Multiply that by 14, and you 
begin to see some of the variety and the stimulation that these 
small grants has provided.
    The unifying agenda for partnership projects comes from the 
Connecticut River Corridor Management Plan and the Scenic Byway 
Plan. We did not go to planning consultants or professional 
planners to do a management plan for this river corridor. 
Rather, we went to our own commissioners and local river 
subcommittee members. And I stress, these are farmers, 
foresters, business people, people who work and live, and the 
teachers involved day-to-day for their livelihood in the river 
valley, with its natural resources.
    It took 4 years of discussion and consensus-building, but 
those local representatives are the people who wrote the six-
volume plan for the river. State and Federal agencies have been 
very supportive in addressing its recommendations, because they 
know that plan is well-rooted in local opinion and knowledge of 
the river.
    Working with an array of partners that includes local 
historical societies and chambers of commerce, we facilitated a 
Scenic Byway Plan that unifies heritage preservation and 
tourism promotion along more than 500 miles of roadway on both 
sides of the river. It was in recognition of the citizen-
written Connecticut River Corridor Management Plan, with its 
many common-sense recommendations--should I break off?
    Senator Thomas. Yes, if you could conclude, please. You've 
exceeded your 5 minutes.
    Ms. Francis. Pardon?
    Senator Thomas. Yes, if you could wind up, yes. You've 
exceeded the five minutes.
    Ms. Francis. All right.
    The partnership is a gem of a public program. It's proven a 
success. But it has always relied on Federal support that has 
come each year only as a result of the goodwill of members of 
the Senate Appropriations Committee. Senators Judd Gregg and 
Patrick Leahy have been good friends of the partnership, and 
they believe it is time to secure a more permanent 
authorization. The State legislatures of New Hampshire and 
Vermont think so, too, and both have passed resolutions calling 
on Congress to establish a program on a permanent basis.
    Our geographical area is bi-State. We need Federal 
authorization for our interstates. Federal agencies----
    Senator Thomas. All right, thank you very much. We will 
include all of your statement in the record. Thank you very 
much.
    Ms. Francis. Thank you.
    [The prepared statement of Ms. Francis follows:]
     Prepared Statement of Sharon F. Francis, Executive Director, 
                  Connecticut River Joint Commissions
    Mr. Chairman, Members of the Subcommittee: Thank you for the 
opportunity to testify of S. 1433, a measure we strongly support. This 
statement will provide the context of our unique bi-state watershed, 
and the unique partnerships that have led to the introduction of S. 
1433.
          description of the upper connecticut river watershed
    For 275 miles, the Connecticut River flows from the Canadian border 
southward between the adjacent states of Vermont and New Hampshire. 
While royal decree gave the river to colonial New Hampshire in the 
seventeenth century, well over half of its 4.5 million acre upper 
watershed lies within Vermont, and comprises two fifths of that state, 
as well as a full third of neighboring New Hampshire. The river is a 
living thread that binds together the people of both states in one 
valley.
    The Upper Connecticut River Valley is the authentic ``New England'' 
of small towns, expansive farmlands and forests, with a river that 
flows free in some sections and is harnessed by dams to provide peaking 
hydroelectric power in others. It's a place where fishermen find some 
of the best wild trout fishing in the entire country, and where valiant 
efforts are slowly bringing back the great migratory Atlantic salmon. 
Tourists marvel over the white steepled churches, town greens, and 
handsome brick mill buildings that are now finding new uses in the 21st 
Century. There are 169 towns in the bi-state watershed, and the largest 
of these has only 20,000 people. Most communities are under 2,000 in 
population. People govern themselves at town meetings where once a year 
they decide the town's business and budget.
    Cooperation across the river is a way of life for people who live 
in the valley but frequently have jobs, family, or schooling on the 
other side of the river. Thirty bridges tie Vermont and New Hampshire. 
Two hundred plus years ago, people in communities along the river tried 
to form their own state, but the states of New Hampshire and New York, 
plus President George Washington, had different ideas, and the result 
was a new state of Vermont that ended at the river's edge. The unity of 
people in the bi-state river valley has, however, never ceased.
                the connecticut river joint commissions
    This common geographic heritage took new form in the late 1980s 
when valley residents on both sides of the river lobbied their state 
legislatures for a pair of commissions to work together to preserve and 
protect the valley's resources and guide growth and development. Both 
legislatures responded affirmatively, and the result is the Connecticut 
River Joint Commissions, that for the last fourteen years has fostered 
a unique approach to bi-state cooperation and local empowerment. Both 
Commissions are advisory and have no regulatory authority, preferring 
instead to educate and empower local stewardship and leadership.
    There are thirty river commissioners, fifteen from each state, 
appointed by their state's governor. The volunteer Commissioners are 
business people, landowners, local officials, conservationists and 
other citizen leaders who live and work in the valley and are committed 
to its future.
    Additionally, the two legislatures authorized the Commissions to 
form bi-state local river advisory committees, comprised of people of 
diverse backgrounds all of whom are nominated by the selectboards or 
city councils of their river front towns. This network of unified 
Commissions and five unified bi-state local river advisory committees 
has provided a set of forceful forums for developing new initiatives 
and addressing issues and opportunities along 275 miles of river.
    the connecticut river joint commissions' timely and unique focus
    The Commissions have approached their legislative charge by 
carefully focused exploration of how to be good neighbors to a great 
river. We consider ourselves students of the river, and as we learn, we 
share our findings widely through our newsletters, fact sheets, and 
other publications. We are also students of our valley's history.
    Back in 1968, the Department of the Interior's Bureau of Outdoor 
Recreation proposed a national recreation area along the Connecticut 
River. The concept was considered enlightened for the times, in that it 
proposed a few small federal recreation areas at key sites along the 
river, supplemented by an array of state and local parks and trails 
with the purpose of safeguarding significant natural and cultural 
sites, and providing for public enjoyment. The proposal met a din of 
opposition, however, and the dire threat of a federal greening of local 
property is recalled by some even today, thirty five years later.
    This opposition to a federal recreation plan did not mean that 
people along the river were opposed to conservation and outdoor 
recreation. To the contrary, they already engaged in excellent 
conservation practices out of enlightened self interest, and outdoor 
recreation was a central element of their lifestyle. The adverse 
reaction was to the threat of an outside entity enforcing conformity 
and limiting the use of private property.
    After the NH and VT Connecticut River Joint Commissions were 
established, we were approached by the Rivers and Trails Conservation 
Assistance program of the National Park Service, offering to help. 
Their professional staff aided us for several years, but ultimately, we 
outgrew the relationship. They relied on deploying their professional 
staff to assist sponsors in doing projects. We realized that very high 
skill levels already existed in valley communities for planning and 
building trails, restoring historic properties, conducting water 
quality monitoring, or a myriad of other conservation endeavors.
               the connecticut river partnership program
    Instead, we created the Connecticut River Partnership, a program of 
small grants that is at the heart of our work, our empowerment of local 
talent and leadership, and our success. The Connecticut River Joint 
Commissions have deliberately kept the Partnership from becoming 
bureaucratic. Each year, we ask for a three page proposal. A selection 
committee of commissioners reviews the packet of applications, ranks 
them, and meets together for a day to select the awardees, based on 
objective criteria and the proposal's relevance to implementing the 
Connecticut River Corridor Management Plan and the Connecticut River 
Scenic Byway Plan.
    From 1992 through 2003, we have awarded $1.5 million in grants of 
federal funds for local projects, and this investment has been matched 
ten-fold, even though no local match was required. We pick good 
projects and good people, and our trust in them has been more than 
repaid by their accomplishments.
    The success of our Partnership program rests on a few important 
principles:

          1. Communities and organizations in the Connecticut River 
        Valley have the savvy and determination to preserve their 
        environment, restore natural habitat, save historic sites, 
        build recreational trails or new access to the river, or invest 
        in tourism infrastructure.
          2. They don't need a well-meaning distant government telling 
        them what to do.
          3. They do, however, need seed money as incentive for 
        transforming their plans into reality and for gathering local 
        partners to help carry out their goals.

    A summary of recent awards is appended to this statement.
  the connecticut river corridor management plan and scenic byway plan
    The unifying agenda for all partnership projects comes from the 
Connecticut River Corridor Management Plan and the Scenic Byway Plan. 
The Connecticut River Joint Commissions did not go to planning 
consultants or professional planners to do a management plan for the 
river corridor; rather we went to our local river subcommittees whose 
members had been appointed by local selectboards and town councils. To 
them we put the hard questions: How can nonpoint pollution be curbed in 
a rural, agricultural region? What kind of habitat is important and 
why? How does economic prosperity relate to the natural resources of 
the valley? What is a healthy relationship between our architectural 
and cultural heritage, and our desired future? It took four years of 
discussion and consensus-building, but those local representatives are 
the people who wrote the six volume plan for the river. State and 
federal agencies have been very supportive in addressing its 
recommendations because they know the plan is well rooted in local 
opinion and knowledge of the river.
    The Corridor Plan emphasized the importance of heritage tourism as 
an avenue for new economic development and a way to galvanize local 
action to safeguard and interpret our rich heritage of historic asset--
covered bridges, brick mill buildings, historic downtowns, one room 
schoolhouses, stone walls, old barns--the fabric of a working landscape 
that has served its owners and communities for over 200 years. Working 
with an array of partners, from local historical societies to chambers 
of commerce to land trusts, the Connecticut River Joint Commissions 
facilitated a Scenic Byway Plan that unifies heritage preservation and 
tourism promotion along more than 500 miles of roadway on both sides of 
the river.
    One of our subsidiary projects is the Connecticut River Byway 
Council that is bringing the Byway to life through a website, 
www.ctrivertravel.net; a map and brochure, ten new interpretive centers 
in communities along the Byway, exhibits in the centers, and a plan for 
signage that will aid visitors in finding their way to the interpretive 
centers and along the Byway. Visitors from Missouri, California, 
Pennsylvania, and everywhere else are discovering the rich historic and 
architectural heritage of New England along the Connecticut River 
Byway.
                        american heritage river
    In recognition of the citizen-written Connecticut River Corridor 
Management Plan with its many common sense recommendations, as well as 
the Joint Commissions= leadership in galvanizing widespread stewardship 
in the upper Connecticut River Valley, our river was selected as one of 
only fourteen American Heritage Rivers in 1998. This honor has 
stimulated new pride in hundreds of people working for the river, has 
brought us into partnership with several federal agencies, and has 
enabled us to expand the technical assistance we provide for addressing 
river issues.
                         riverbank restoration
    The most prevalent problem facing riverfront land owners, not to 
mention people who fish and depend on water quality, is erosion of 
unstable riverbanks that break off and send torrents of sediment into 
the river. Through the Partnership Program, we have supported the 
county natural resource conservation districts in completing 
inventories of the entire length of the river in our two states, which 
amounts to hundreds of erosion sites. Some of these lend themselves to 
restoration. Many do not because of the inherent patterns of river 
dynamics in that area.
    The Connecticut River Joint Commissions convened technical advisors 
from federal and state agencies to review the erosion site inventories, 
and identify sites that were good candidates for restoration. This 
analysis took many months, but ultimately three top priority sites were 
selected and have been restored. The dedication ceremony for the third 
site will take place in a few days, on November 14th. This site was 
especially tricky to work on. Not only were there Native American 
artifacts in the bank which could not be disturbed, but also a 
federally-endangered species of mussel was found on the river bottom 
immediately adjacent to the site. With legally enforceable ``thou shalt 
not disturb'' mandates on both sides, we had to tread a thin line, and 
did so thanks to the creativity of our design engineer and of the 
contractor who did the work. A critical component of our work is 
finding the expertise to address river challenges admirably and 
successfully.
                              scenic byway
    Another example of our role in providing technical expertise has 
been for the Connecticut River Scenic Byway. We are concentrating on 
building the infrastructure for heritage tourism so that visitors will 
find a cooperating network of historic and scenic sites, as well as 
recreational experiences. Our consultants have designed a logo for the 
Byway, a handsome set of four-panel displays for each of the ten 
interpretive centers along the route, and a system of attractive signs 
that use the logo and will enable visitors to find their way.
                   the need for federal authorization
    The Upper Connecticut River Partnership Program is a gem of a 
public program that has proven its success, but it has always relied on 
federal support that has come each year only as a result of the 
goodwill of members of the Senate Appropriations Committee. Senators 
Judd Gregg and Patrick Leahy have been good friends of the Upper 
Connecticut River Partnership, but in 1999, despite their best efforts, 
when the dust settled on the Appropriations bill, our Partnership money 
ended up elsewhere.
    The Upper Connecticut River Partnership deserved a more certain 
future. The State Legislatures of New Hampshire and Vermont thought so 
too, and both passed resolutions calling upon Congress to secure a 
permanent authorization for the Partnership.
    Our geographical area is bi-state, and thus should have federal 
authorization for our interstate role. Federal agencies come to the 
Connecticut River Joint Commissions to deliver programs because we are 
the only effective agent for bi-state cooperation. It is time for these 
ad hoc relationships to be formalized with statutory authorization. We 
base this request for Congressional authorization on the models 
provided by similar multi-state programs such as the Chesapeake Bay 
Gateways and Water Trails Network, and the Lake Champlain Basin 
Program.
    The scale on which we operate--275 miles of river--and a 11,000 
square mile watershed--can only be embraced by intergovernmental 
support through the cooperation fostered by the Connecticut River Joint 
Commissions. S. 1433 recognizes and reinforces a longstanding 
partnership and set of collaborative relationships between agencies of 
New Hampshire and Vermont as well as with agencies of the federal 
government.

    Senator Thomas. Senator Clinton has joined us.

           STATEMENT OF HON. HILLARY RODHAM CLINTON, 
                   U.S. SENATOR FROM NEW YORK

    Senator Clinton. Thank you, Mr. Chairman.
    Senator Thomas. I see we're a little pushed now for a vote 
here, so----
    Senator Clinton. Thank you, Mr. Chairman.
    And I will submit my entire statement for the record.
    But I want to thank you and Senator Akaka for including the 
important legislation, S. 1241, which I introduced in June of 
this year, to honor one of the real pioneer women in our 
country's history. I will also be submitting with my testimony 
letters of support from Representative McNulty, who represents 
the area in which the Kate Mullany House is found, in Troy, New 
York, along with the State majority leader of the New York 
State Senate, Joe Bruno, and others, including Representatives 
Sweeney and Bollard and Quinn, and Dennis Hughes, president of 
the New York State AFL-CIO, Thomas Hobart, president of the New 
York State United Teachers, and Mark Pattison, Mayor of Troy, 
New York. And I request that these letters also be made part of 
the record, Mr. Chairman.
    Senator Thomas. Without objection.
    Senator Clinton. This is a very great delight for me, 
because, as First Lady, I started a program called Save 
America's Treasures, working in conjunction with the National 
Trust for Historic Preservation. We worked with local officials 
and private groups around our country to bring to greater 
national attention some of the forgotten stories that make up 
America's past.
    One of those stories was of Kate Mullany, a young Irish 
immigrant, who came to upstate New York, who went to work in 
the collar industry. Troy, New York, became the center for 
detachable collars and cuffs. And in the 1820's, a first 
commercial laundry was established, where literally thousands 
of these young immigrant women worked to clean the--to make 
first, and then to clean the cuffs and collars.
    In 1864, partly because of wage discrimination, the men who 
worked in this industry were paid more than the women. And 
partly because of working conditions, Kate Mullany and about 
200 of her fellow female laborers organized the first woman's 
trade union in the United States, the Collar Laundry Union. 
They demanded to be paid the same as their male colleagues, who 
worked in their industry, and they even went on strike to 
secure a 25-cent wage increase, which was a lot of money back 
then.
    Her leadership, as a union leader and as a real pioneer, 
enabled not only her family, but others, to have a decent 
standard of living. And the Mullany family bought a small home 
in Troy, which I had the privilege, in 1998, as designating a 
national historic landmark. The National History Landmark Theme 
Study on American Labor History concluded that the Kate Mullany 
House appears to meet the criteria of national significance, 
suitability, and feasibility for inclusion in the National Park 
System.
    I'm always looking for opportunities, Mr. Chairman, to make 
sure that the roles and contributions that women made to 
American history are recognized. This gives us an opportunity 
to do just that. And the Kate Mullany House will become part of 
a larger project of the American Labor Studies Center, a not-
for-profit corporation, which will tell the story of the 
industrialization of America, of the fight for fair wages and 
safe working conditions, and of the contributions that 
extraordinary young women, like Kate Mullany, made to the 
development of our nation's economy.
    So, Mr. Chairman, I see this as the beginning of a 
constructive process. I look forward to working with you and 
Senator Akaka to turn this legislation into reality, and I 
thank you for your time and attention to this important bill.
    Senator Thomas. Thank you, Senator Clinton.
    [The prepared statement of Senator Clinton follows:]

          Prepared Statement of Hon. Hillary Rodham Clinton, 
                       U.S. Senator From New York

    Mr. Chairman, I want to open my remarks by extending my 
warmest thanks to you and to the ranking member, Senator Akaka, 
for including S. 1241 in today's hearing. I introduced S. 1241 
in June of this year. It is wonderful to have been given this 
opportunity to discuss my legislation before your subcommittee 
just a few months later. It is important to mention the 
tireless efforts of Representative McNulty, my colleague from 
New York, who has introduced this legislation in the House and 
has been working hard to win its passage over the course of 
several congresses. I know he is heartened by the decision to 
hold this hearing.
    And I am pleased to submit with my testimony letters of 
support from Representative McNulty and from the Majority 
Leader of the New York State Senate, Joseph Bruno, whose 
districts encompass the site. In addition, I am submitting 
support letters from Representative Sweeney, Representative 
Boehlert, and Representative Quinn, from Denis Hughes, the 
President of the New York State AFL-CIO, from Thomas Hobart, 
the President of the New York State United Teachers, and from 
Mark Pattison, Mayor of Troy, New York. I request that these 
letters be made a part of the record.
    I fully expect that you will receive more letters of 
support from a variety of sources, including organized labor, 
and other local and state officials from across the political 
spectrum. The letters I am submitting show that this bill is 
not a Democratic bill. It's not a Republican bill, or a labor 
bill--it is a unique bill.
    Mr. Chairman, it's not surprising that there should be such 
a groundswell of local support for S. 1241, because the Kate 
Mullany National Historic Site deserves to be established in 
Troy, New York. Not only does this legislation honor Kate 
Mullany's work and her life, but it would allow the National 
Park System to provide the technical assistance needed to 
ensure the site honors the national significance of Kate 
Mullany.
    I visited the Kate Mullany House during the summer of 1998. 
I was honored to be present at a ceremony commemorating the 
designation of the Kate Mullany House as a National Historic 
Landmark. It was a highlight of my time as First Lady and of my 
participation in the ``Save America's Treasures'' program.
    Troy is located across the Hudson River and just north of 
Albany, New York. The Hudson River was a great highway of 
commerce in the 19th century and it remains an important 
commercial route to this day. Situated at the junction of the 
Hudson and the Mohawk Rivers, Troy has a featured place in the 
development of the collar and cuff industry and the iron 
industry in the 19th century, as well as in the growth of men's 
and women's worker associations. Great businesses grew up, and 
heroic labor leaders with them.
    Kate Mullany was certainly one of those leaders. In fact, 
she embodied the ideals of both the labor movement and the 
women's suffrage movement. Kate Mullany's leadership role 
occurred at around the same time as the increasing prominence 
of notable suffragists like Susan B. Anthony and Elizabeth Cady 
Stanton in the women's rights movement. In fact, Kate Mullany 
has also been inducted into the National Women's Hall of Fame 
in Seneca Falls, New York.
    Kate Mullany came to the United States as a young immigrant 
from Ireland and grew into a dynamic and effective labor 
organizer. This bill is an important tribute to her and to New 
York's rich history of women's rights and the individuals who 
fought so hard to improve the lives of women laborers and 
immigrants all over the country.
    Like so many other women, in order to help support her 
family, Kate Mullany went to work washing, starching, and 
ironing clothes at a commercial laundry in Troy, New York. Kate 
worked outside the home, fourteen hours each day, for two 
dollars a week, under harsh conditions.
    Kate had other qualities in addition to this enormous 
dedication and self-sacrifice. When a newspaper claimed that 
there weren't enough women in New York to be labor organizers, 
Kate Mullany said confidently: ``You show me the women and I'll 
turn them into organizers.'' And she did.
    In February of 1864, Kate Mullany and about 200 of her 
fellow female laborers organized one of the first, if not the 
first, sustained women's trade unions in the U.S., the ``Collar 
Laundry Union.'' Together, they were a formidable force and, 
after striking for a week, they were able to secure a 25 
percent wage increase.
    The Collar Laundry Union continued as an influential force 
in the Troy collar and cuff industry for five years beyond its 
formation, which was very unusual for women's labor 
organizations at this time. Kate Mullany's leadership was 
recognized four years later, when National Labor Union 
President William Sylvis appointed her to the labor union's 
national office. This was the first time a woman had been so 
honored.
    After the successful 1864 strike, Kate Mullany's family 
used some of those increased wages to buy land. A double row 
house was built on the land. The Mullany's lived on the top 
floor at 350 8th Street. Many of their neighbors labored in the 
collar and iron working industries. It was in this house that 
Kate Mullany and her family spent many more years.
    Based on a variety of factors, the National Historic 
Landmark Theme Study on American Labor History concluded that 
the Kate Mullany House appears to meet the criteria of national 
significance, suitability, and feasibility for inclusion in the 
National Park System.
    It is important to add that the Kate Mullany House is one 
piece of a larger project of the American Labor Studies Center, 
a not for profit corporation. Working with the Center, the New 
York State AFL-CIO has recently purchased the House and has 
made arrangements to purchase an adjacent lot. They plan to 
transform the lot into the Kate Mullany Park, which will honor 
female trade union pioneers. I understand that funding for this 
project is expected to come from New York State funds already 
set aside for the purpose. According to the Center, the 
technical assistance the Park Service is uniquely qualified to 
provide is a critical element in the full development of the 
site.
    When the Kate Mullany project is fully completed and 
becomes a part of the national park system, the rich and 
vibrant history of the American labor movement will be featured 
in a wonderful location. And when people come to study this 
movement at the Kate Mullany site, they will know that the 
voices of the men, and especially the women, who led the 
American labor movement, have been preserved forever.
    So, Mr. Chairman, I see this as the beginning of a 
constructive process. And I look forward to working with you 
and Senator Akaka to turn this legislation into a reality. 
Thank you.

    Senator Thomas. Senator Schumer.

      STATEMENT OF HON. CHARLES E. SCHUMER, U.S. SENATOR 
                         FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman.
    And I just want to, first, join my colleague in supporting 
this legislation, commend her for her great works on this. As 
the cosponsor of this legislation, obviously I am in support.
    I'd just like to say two things, Mr. Chairman. I'll ask 
unanimous--I know we're pressed for time, so I'll be very 
quick.
    Two things. Number one, that the city of Troy is engaged in 
a turnaround. It's coming back. And to remember its roots, to 
remember the collar industry, and to remember the sacrifices 
that men and women made to build this city, to build America, 
immigrants and others, is really important. Second, of course, 
it is fitting to realize that women played a very, very strong 
role in not only building America, these women had to raise 
families, as well as work so hard. And Kate Mullany symbolizes 
them. So this is a wonderful thing for Troy, but it's a 
wonderful thing for America.
    Senator Thomas. Thank you, Senator.
    Thanks to all of you. I thought that the Senator and you 
made very good statements.
    Some disagree here, and it's good to have sides represented 
and to have women represented as we're talking here, Ms. 
Francis.
    Thank you so much, and the committee is adjourned.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                                           Morris Law Firm,
                                     Atlanta, GA, October 28, 2003.
Hon. Craig Thomas,
Committee on Energy and Natural Resources, U.S. Senate, Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Thomas: I represent the Perkins branch of the Carnegie 
family in connection with the property retained by them and me on 
Cumberland Island, Georgia. I am writing to you on my own behalf and on 
behalf of the Perkins family in order to seek your assistance in 
forcing the National Park Service (``NPS'') to honor commitments made 
to us in the 1970s and 1980s as part of the process that transformed 
Cumberland Island (``Cumberland Island'' or the ``Island'') into the 
Cumberland Island National Seashore. We seek your help in causing the 
NPS to fulfill its promises to us of convenient vehicular access along 
the South Cut Road that runs from our retained properties to the 
Atlantic seashore. Specifically, we ask you to cause the NPS to 
designate the South Cut Road as ``potential wilderness'' rather than 
``wilderness'' throughout the term of the retained estate held by the 
Perkins family and my family.
    As you may know, during the latter part of the nineteenth century 
and first half of the twentieth century the heirs of Lucy and Thomas 
Carnegie of Pittsburgh, Pennsylvania, and Charles Howard Candler of 
Atlanta, Georgia, primarily owned Cumberland Island. In the late 1960s 
and early 1970s, in order to preserve the natural character of 
Cumberland Island, the Carnegie and Candler families contacted the NPS 
and proposed that legislation be enacted to prevent any commercial 
development of the Island. The efforts of these families, among others, 
resulted in the passage of legislation in 1972 which created the 
Cumberland Island National Seashore. The Perkins family and I retain 
life interests to our homes, including the right the use and to have 
convenient access to our properties and the Atlantic seashore.
    As part of our discussions with the NPS in the 1970's and 1980's 
related to the creation of the Cumberland Island National Seashore, we 
received explicit assurances from Mr. Joe Brown, then the Regional 
Director for the Southeast Region of the NPS, and Mr. George Sandberg, 
then the representative of the NPS and the National Park Foundation 
responsible for negotiating with the families to transfer their lands 
to the NPS. Stated briefly, the NPS promised us that we would have a 
right of convenient access to the Atlantic seashore during the entire 
term of our retained rights to use of and access to our properties on 
Cumberland Island.
    The NPS' assurances regarding our right of access to the Atlantic 
seashore were confirmed in part by Special Use Permit No. 5:5630:29 
(the ``Permit''), which was issued to Table Point Co., Inc., a company 
formed to hold our interests on Cumberland Island, on September 30, 
1980. Under that Permit, we were granted a right of ``convenient 
access'' to the Atlantic seashore for a twenty-year period. The Permit 
expressly references the South Cut Road as a mechanism for ``convenient 
access'' to the Atlantic seashore, and during an earlier hearing before 
Congress held on April 30, 1980, the members of Congress involved 
determined, and the NPS agreed, that the South Cut Road provided the 
only convenient access for us to the Atlantic seashore.\1\ Further, 
although the NPS had promised us that the Permit would be automatically 
renewable until such time as our retained rights expired, the Permit as 
issued did not include an automatic renewal provision. When we brought 
this omission to the NPS' attention, the NPS assured us that there 
would not be any problem with renewing the Permit at the expiration of 
its initial term.
---------------------------------------------------------------------------
    \1\ Mr. Sandberg confirmed the NPS' understanding in this regard in 
a latter dated February 25, 2001, which clearly and unequivocally 
recognizes that Table Point Co. retained the right to vehicular beach 
access at a convenient location until such time as its retained rights 
expired or the NPS installed some form of public transportation to the 
Atlantic seashore. The only ``convenient'' access for the Table Point 
Co. shareholders (the Perkins and Morris families) is the South Cut 
Road, which runs directly east-west from our property to the Atlantic 
Seashore. The South Cut Road could not be more convenient, nor could 
any of the other alternatives be less convenient.
---------------------------------------------------------------------------
    The NPS' assurances regarding our right of convenient access 
pursuant to the South Cut Road were also confirmed in a letter from Mr. 
Donald Paul Hodel, Under Secretary, U.S. Department of the Interior, 
Office of the Secretary, dated December 15, 1981, to the Honorable 
Morris K. Udall, Chairman, Committee on Interior and Insular Affairs, 
regarding the position of the Department of the Interior on the bill 
designated to propose portions of the Cumberland Island National 
Seashore as wilderness. On page 2 of the letter, Under Secretary Hodel 
specifically states that the South Cut Road is in an area intended for 
future designation as ``wilderness'' at such time as the NPS acquires 
all of the land that was formerly under Carnegie ownership. This 
statement is an acknowledgement of the agreements reached between Mr. 
Joe Brown, then Regional Director, and me in 1980 to the effect that 
South Cut Road would be excluded from the wilderness designation until 
such time as the Table Point Co.'s retained ownership rights expire. 
Thus, as of December 15, 1981, the Office of the Secretary had 
knowledge of our agreement and was operating under same, and directed 
that South Cut Road be designated ``potential wilderness'' rather than 
``wilderness'' until our retained ownership rights expire.
    The Cumberland Island National Seashore resulted from the efforts 
of the Carnegie and Candler families to preserve Cumberland Island from 
commercial development. In pursing our goal of preservation and in 
transferring the large tracts of private property to the NPS in order 
to create the Cumberland Island National Seashore, we were assured the 
rights to continue to use and enjoy our retained properties and the 
related right to convenient access to the Atlantic seashore along the 
South Cut Road. It is my sincere hope that you will help us to force 
the NPS to honor its commitments to us regarding our right to use the 
South Cut Road.
    I have attached to this letter various materials, including a map 
showing the locations of each of the various ``roads'' on Cumberland 
Island, which provide more information related to the history of our 
dealings with the NPS. I will be contacting you by telephone in the 
next few days in order to discuss this letter and those materials with 
you, and look forward to working with you on this difficult and 
important issue.
            Very truly yours,
                                                Thornton W. Morris.
                                 ______
                                 
                                           Morris Law Firm,
                                     Atlanta, GA, October 28, 2003.
Hon. Craig Thomas,
Committee on Energy and Natural Resources, U.S. Senate, Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Thomas: The purpose of this letter is to outline to 
you the history of the use by the shareholders of Table Point Co. Inc., 
the company formed to hold the interests of the Perkins branch of the 
Carnegie family and myself in Cumberland Island, Georgia, of the beach 
road running in a direct east-west line from our retained estate to the 
Atlantic Ocean and known as ``South Cut Road.'' The history is as 
follows:
    1. The proposed Development Plan for the Cumberland Island National 
Seashore, which was prepared in September 1967, contemplated a much 
different picture of Cumberland than we presently have in existence. 
Among other things, there was contemplated an Island shuttle service 
which would move visitors in jitney trains up and down the Main Road 
and possibly to the beaches. This plan shows the various locations of 
the proposed shuttle service.
    During this period of history many important things were happening 
which affected Cumberland. A trust for one branch of the Carnegie 
family sold its land to Mr. Charles Fraser, the developer of Hilton 
Head Island, who proceeded to begin development of the southern and 
northern tracts purchased. He built a visitors center which is now the 
National Park Service Sea Dock house and was underway with additional 
development, as well as beginning the construction of a significant jet 
port located on the northern portion of the island. The scars from that 
jet port still remain and can be seen from the air. Also, there was 
significant pressure from certain portions of the Georgia Legislature 
to pass legislation known as the Camden Recreational Authority Bill 
which had as its purpose the condemnation of private lands on 
Cumberland Island by a state development authority, and then conveying 
such lands to Mr. Charles Fraser for development. In other words, to 
the extent that Mr. Fraser was unable to negotiate a purchase from any 
of the owners of Cumberland, since he was the moving force behind this 
legislation, he would have been able to accomplish his ends 
serendipitously.
    In a hearing on the floor of the Georgia House of Representatives, 
I, as a member of the Georgia Legislative Study Committee, known as the 
Coastal Islands Study Committee, was able to bring to light the fact 
that the bill had been introduced, and supported by a legislator/
attorney who was on retainer to Mr. Charles Fraser. This conflict of 
interest killed the legislation and the political career of this 
particular legislator.
    I mentioned this bit of history to show you the minute-by-minute 
events that were occurring in our fight to stop Mr. Charles Fraser from 
developing Cumberland Island. It was at that point that I, representing 
the residents of Cumberland Island, worked out with Mr. George Hartzog, 
Jr., the invitation for the National Park Service to come to Cumberland 
Island, and for the residents and the National Park Service to develop 
the joint public/private ``co-stewardship'' concept for the future. 
That relationship has, except for a few problems which the present 
superintendent, Mr. Arthur Frederick, is attempting to resolve, on the 
whole been a very productive working relationship, where the residents 
have been instrumental in helping the National Park Service on many of 
its projects.
    The only disheartening issue which has developed between the 
National Park Service and us has been the arbitrary and capricious 
method by which the Park Service has attempted to deal with Table Point 
Co. Inc., on its use of the South Cut Road.
    2. The letter from me to Mr. George Hartzog, who, at that time, was 
Director of both the National Park Service and the National Park 
Foundation, dated April 30, 1970, was the invitation that we, as 
owners, gave to the National Park Service to begin the process of 
acquiring lands on Cumberland. You will notice that this letter refers 
to our clients as the Cumberland Island Conservation Association. This 
was an organization composed of the various owners and other residents 
on Cumberland who were fighting Mr. Charles Fraser's proposal to 
develop Cumberland Island.
    3. The Memorandum dated June 26, 1970, from me to the Cumberland 
Island Conservation Association, which as I said earlier was composed 
of the landowners of Cumberland Island, is one in which I describe some 
of the agreements reached between Mr. George Sandberg, the 
representative of the National Park Foundation and National Park 
Service handling the Cumberland Island Project and me. You will notice 
that at that early stage, the landowners are assured the right to use 
any and all roads on the island, so long as that road is not a private 
estate road of another owner. The issue of road use was covered early 
in our discussions with the National Park Service representatives and 
the landowners were assured the right to use all of these roads. I then 
advised the landowners that this was the position of the National Park 
Service, and those understandings became as much a part of the various 
agreements entered into between the owners and the National Park 
Service as if written in them.
    4. In my prepared remarks dated September 19, 1978, before a forum 
sponsored by the National Park Service, on page 2, I discuss the 
concept of how the retained estates were developed with the National 
Park Service, and the concept upon which the various owners were 
induced to transfer their land to the National Park Service. This 
discusses the example used by Mr. Stuart Udall of the ``100 year 
tunnel''. It again reflects a general philosophy of accommodation and 
working together between the residents and the National Park Service 
and a slow transition having minor effects on the usage by the 
residents of the various areas on Cumberland.
    5. In my letter to then Congressman Ronald ``Bo'' Ginn, dated June 
19, 1979, I raised for the first time an issue which came to my 
attention in 1979 by the National Park Service of its desire to close 
our beach road. I objected strenuously with the National Park Service 
and when I was unable to get any satisfactory hearing of our rights and 
privileges, went to the Congress of the United States. The starred 
paragraph of this letter describes the problem which we foresaw in 1979 
and sought congressional support to alleviate.
    6. My letter to Congressman Ginn dated February 7, 1980, again 
outlines the issues regarding the rights of Table Point, Co. Inc., to 
use the South Cut Road, and this was the basis upon which the ultimate 
hearing was held in Washington. This letter reiterates again our 
consistent position that Table Point Co. Inc. was assured the right to 
use South Cut Road and our unwillingness to allow the National Park 
Service to abrogate its agreements with us.
    7. Both the Georgia and the Pennsylvania delegations were quite 
active in requiring the National Park Service to live up to its word. 
The letter dated February 22, 1980, from Congressman Doug Walgren of 
the 18th District of Pennsylvania to Secretary Cecil D. Andrus is an 
example of the bipartisan support we had in Congress for this issue.
    8. On March 26, 1980, the Acting Assistant Secretary of the 
Department of the Interior responded to Congressman Walgren in the 
bureaucratic language of ``use of the Duck House Road would require the 
Perkins family and Mr. Morris to drive only about four additional miles 
to reach the beach''. Anyone with any knowledge of Cumberland Island 
understands from the face of this letter the ridiculous position of the 
Department of the Interior. The author of the letter, Acting Assistant 
Secretary David Hales, obviously had never been to Cumberland Island 
and knows nothing about the Duck House Road which at that time and is 
today practically impassable even in a four-wheel drive vehicle. I am 
including this letter to show the insensitivity of the National Park 
Service at that time to the needs of Table Point Co. Inc. and its 
shareholders.
    9. Mr. George Sandberg, while still with the United States 
Department of the Interior, wrote the enclosed letter in which he 
reiterated the commitment to a ``convenient beach access'' until which 
time as the National Park Service provided the jitney service. Also, he 
makes clear that this commitment to convenient beach access was meant 
to be a covenant running with the land as stated in the top paragraph 
of page 3. This letter simply reiterated all of the statements that we 
had made up until that point to the National Park Service to the affect 
that Table Point Co. Inc. had been guaranteed this beach access.
    10. On April 30, 1980, a hearing was held at the House of 
Representatives attended by the following Congressmen: Ronald ``Bo'' 
Ginn, Butler C. Derrick, Newt L. Gingrich, M. Dawson Mathis, Billy 
Evans, William S. Moorhead, Doug Walgren, Wyche Fowler, Jr. and Larry 
McDonald, and the following Senators: Sam Nunn, Herman E. Talmadge, H. 
John Heinz, III and Richard S. Schweiker, being the Congressmen and 
Senators from Georgia, Pennsylvania, and in the case of Congressman 
Derrick, South Carolina. At that hearing, it was determined and the 
National Park Service agreed, that South Cut Road was the only 
convenient access to the Atlantic Beach by the Table Point Co. Inc. 
retained estate, that the South Cut Road would be designated as 
``Potential Wilderness'' and not wilderness, and that Table Point Co. 
Inc. and its shareholders, being the Perkins and Morris families, had 
the right to use South Cut Road throughout the term of the retained 
estate of Table Point Co. Inc. In making this final determination and 
agreements, Mr. Joe Brown, then District Director of the National Park 
Service, requested of me and Mr. William Boyd, Jr., both of us 
representing Table Point Co. Inc., that we agree to the use of an 
automatic renewable twenty-year Special Use Permit. Both Mr. Boyd and I 
personally were promised that no problem would occur in the renewal of 
the Special Use Permit throughout the term of the retained estate. It 
was represented to us that this was the longest Special Use Permit 
available to the National Park Service at that time and it would help 
the National Park Service not to have to go back and redo all of its 
planning for Cumberland Island. We agreed to this procedure, again 
trusting the National Park Service to live up to its word. Also, I was 
personally promised that the Special Use Permit would be delivered to 
me in a matter of days, and that representation was given by Mr. Brown 
to the Congress of the United States. From April 30 on, I began to 
receive nothing but delays from the National Park Service in its 
getting the documentation to me.
    The use of the automatically renewable twenty-year Special Use 
Permit was agreeable to us because we were assured that the permit 
would be renewed throughout the period of the retained estate and that 
there would be no problem from April 30, 1980 until the expiration of 
the Table Point Co. Inc. retained estate in the use by Table Point Co. 
Inc. of the South Cut Road. I am enclosing a copy of an affidavit 
appearing in the Office of the Clerk of Superior Court of Camden 
County, Georgia in Deed Records numbered 159, page 633, dated December 
4, 1980, which outlines the understandings of such parties.
    11. On April 24, 1980, Senator Talmadge wrote to Director William 
Whalen to determine whether the April 30 meeting was sufficient to 
cause the National Park Service to honor its promises to us. On June 
17, 1980, Mr. Joe Brown, Regional Director, responded to Senator 
Talmadge by saying that ``as a result of the April 30 meeting, special 
consideration will be given to providing the Perkins family access to 
the beach at a convenient location. As soon as we have prepared the 
necessary Special Use Permit, we will present our proposal to Mr. 
Thornton Morris.'' Thus, the National Park Service acknowledges itself 
that the convenient location to the Atlantic Beaches by the retained 
estate of Table Point Co. Inc. is South Cut Road. This letter reflects 
this agreement.
    Beginning approximately a week after the hearing, I began to phone 
Mr. Joe Brown to inquire as to the status of the documentation of our 
agreements. At that time, Mr. Joe Brown began to stall me and blamed it 
on bureaucratic inertia. However, I have subsequently determined that 
the real problem may well have been a fraudulent misrepresentation to 
me and not just the slowness that is required in working through the 
administrative process.
    12. I have just recently uncovered evidence which reflects that Mr. 
Brown was not truthful in his discussions with me. On May 23, 1980, he 
wrote to Mr. G. Robert Kerr, Executive Director of The Georgia 
Conservancy, apparently seeking its approval of the agreement he 
entered into with Table Point Co. Inc. and represented to be our 
agreement to the Congress of the United States. On June 13, 1980, The 
Georgia Conservancy responded to Mr. Joe Brown in which The Georgia 
Conservancy recommended that South Cut Road be designated as 
``Potential Wilderness'' and that a Special Use Permit be granted to 
the shareholders of Table Point Co. Inc. However, this recommendation 
was not the unequivocal automatically renewed Special Use Permit which 
was agreed to between us and which Mr. Joe Brown represented to 
Congress. It appears now that Mr. Brown somehow felt that he needed to 
have the support of The Georgia Conservancy even though he had already 
promised to Table Point Co. Inc. and to the Congress of the United 
States how the nature of the Special Use Permit would work. However, 
this letter reflects the agreement to cause South Cut Road to be 
``Potential Wilderness'' and that Table Point Co. Inc. was meant to 
have the right to use it throughout our retained estate.
    13. Then on July 3, 1980, the ``Director'' who apparently was Russ 
Dickenson, wrote a letter to The Wilderness Society in which he stated 
that ``our Southeast Regional Office is negotiating with Mr. Thornton 
Morris on conditions of a Special Use Permit . . . ''. Nothing could 
have been further from the case. There were no negotiations because all 
of those occurred on April 30, 1980. Again, since I only received the 
information of paragraphs 12 and 13 recently, I did not understand that 
the National Park Service sought the approval of The Georgia 
Conservancy and The Wilderness Society after it had made binding 
commitments with me and representations to the Congress of the United 
States. However, likewise, The Wilderness Society approved the 
designation of South Cut Road as a ``Potential Wilderness'' and 
recommended that Table Point Co. Inc. have the Special Use Permit.
    14. In late September, after many, many phone calls by me to Mr. 
Joe Brown, Regional Director of the National Park Service, demanding 
the documentation reflecting our agreement, by letter dated September 
22, 1980 Mr. Joe Brown sent to me what he referred to as the ``fully 
prepared Special Use Permit''. This was a full five months after our 
agreement and after Mr. Joe Brown represented to me and to the Congress 
that the documentation would be handled ``in a matter of days''. The 
second paragraph of this letter of September 22, 1980 was the first 
time I ever heard that the Special Use Permit agreed to by the National 
Park Service would not be automatically renewable. I immediately 
contacted Mr. Brown and demanded that the document be prepared in 
accordance with the representations to the Congress of the United 
States and his agreement with me.
    I met with Mr. Joe Brown and he ``pleaded'' with me to let the 
National Park Service handle it this way and assured me again that 
there would be no problem with the renewal. Also, he knew that we were 
weary of having gone through the congressional process and wanted to 
avoid another trip if possible. You will notice that in the second 
paragraph that he calls to my attention the fact that the permit is not 
on its face automatically renewable, although that was our agreement.
    It is only after recently obtaining the documentation where he was 
not truthful with us in his dealings, do I have an understanding of 
what probably happened. It appears that Mr. Brown, being anxious to 
please The Georgia Conservancy and The Wilderness Society, attempted to 
mollify them with this language, at the expense of living up to his 
word to us. This appears to be a fraudulent misrepresentation to the 
shareholders of Table Point Co. Inc. and to the Congress of the United 
States.
    15. An issue developed with the South Cut Road in 1985, and I wrote 
a letter dated March 15, 1985 to the Superintendent at the time, Mr. 
Ken O. Morgan. In that letter, I stated again the agreements for the 
Special Use Permit, and the fact that it was used at the request of the 
National Park Service.
    16. During 1997, I discussed with then Superintendent Denis Davis 
the automatic renewable nature of the Special Use Permit. Mr. Denis 
Davis asked me to forward the information to him which I did by letter 
dated July 2, 1997. He assured me that there would be no problem with 
the renewal and began to stall.
    17. After Mr. Denis Davis was replaced with Mr. Arthur C. 
Frederick, I contacted Mr. Arthur Frederick and discussed with him on 
several occasions the renewal of the Special Use Permit. I was told 
that there was ``no problem'' with its renewal but that the Park 
Service was ``going through channels''. On May 31, 2000, I wrote a 
letter to Mr. Frederick formally requesting the National Park Service 
immediately issue the Special Use Permit. I still did not understand 
that there might be a problem inherent with the automatic renewal 
feature agreed upon.
    When the Wilderness Management Plan came out, I obtained a copy and 
found for the first time that the National Park Service was taking the 
position that the Special Use Permit was expired and that the renewal 
was not mandatory. No individual at the National Park Service ever 
advised me of this until I read it in the proposed plan.
    At this time, I am asking your office to cause the National Park 
Service, Department of the Interior, to grant to Table Point Co. Inc. 
and its shareholders written and binding understandings which carries 
out the consistent promises of the National Park Service to Table Point 
Co. Inc. for the use of the South Cut Road throughout the term of the 
retained estate of Table Point Co. Inc.
            Best wishes,
                                                Thornton W. Morris.
                                 ______
                                 
                                           Morris Law Firm,
                                     Atlanta, GA, October 28, 2003.
Hon. Craig Thomas,
Committee on Energy and Natural Resources, U.S. Senate, Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Thomas: I am writing this letter for inclusion in the 
record to be developed at a hearing in the United States Senate 
scheduled for Thursday, October 30, 2003, related to the Cumberland 
Island National Seashore Wilderness Boundary Act of 2003, S. 1462 (the 
``Bill''), which is intended to amend Public Law 97-250 (96 Stat--709). 
I represent Table Point Co., Inc. (``Table Point''), the transferor of 
substantial real property on Cumberland Island that enabled the 
Cumberland Island National Seashore to become a reality. Table Point 
includes members of the family of Coleman Perkins and myself, and we 
want to express our support for the bill in the manner discussed below.
    Although we support the bill in principle, we believe that Section 
2(b)(2) of the bill must be amended in order to include the South Cut 
Road, which appears to have been inadvertently omitted. As the attached 
materials indicate, such an amendment would confirm the agreement 
reached by the National Park Service (``NPS'') and Table Point with 
respect to retained use rights involving the South Cut Road.
    The Perkins family and my family have used the South Cut Road on a 
regular basis for 30-plus years, and in 1980 the NPS promised us that 
we would be able to continue to use the South Cut Road for the duration 
of our retained rights on Cumberland Island. Amending Section 2(b)(2) 
to include the South Cut Road will, therefore, both:

  <bullet> ensure that the NPS honors a longstanding commitment made to 
        us at the time that the Cumberland Island National Seashore was 
        created, and
  <bullet> be beneficial to Cumberland Island as a whole. Specifically, 
        continuing use of the South Cut Road will have less 
        environmental impact on the Island as a result of its direct 
        access to the coast, will be more convenient for current Island 
        residents than other roads, and will reduce fire hazards.

    If the NPS is allowed to break its promise to us related to our 
continued use of the South Cut Road, then Congress can anticipate a 
chilling effect on other landowners who might otherwise be interested 
in donating land to the NPS. Such an effect will work to the detriment, 
rather than the betterment, of our country's environmentally important 
areas like Cumberland Island.
    I appreciate your time on and attention to this important matter.
            Very truly yours,
                                                Thornton W. Morris.
                                 ______
                                 
                     Congress of the United States,
                                  House of Representatives,
                                  Washington, DC, October 28, 2003.
Chairman Craig Thomas,
U.S. Senate Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, Dirksen Senate Office Building, Washington, 
        DC.
    Dear Chairman Thomas: I am writing in support of the Kate Mullany 
National Historic Site Act (S. 1241), legislation that would establish 
the Kate Mullany National Historic Site in Troy, New York. This 
legislation is scheduled to be considered by the Senate Energy and 
Natural Resources Committee, Subcommittee on National Parks on 
Thursday, October 30 at 10:00 AM.
    National Historic Site Designation of the Kate Mullany House will 
bring important national attention to a site that is historically 
significant for the role played by Kate Mullany with the first all 
female union in the 1860s. As a 19-year-old Irish immigrant, Kate 
Mullany led the Collar Laundry Union in the United States and was the 
first woman to serve as an officer of a national union. She was 
recently inducted into the National Women's Hall of Fame in Seneca 
Falls, New York for her outstanding achievements. The Mullany House was 
declared a National Historic Landmark in 1997 and was recently 
purchased by the American Labor Studies Center with funds provided by 
New York State Senate Majority Leader Joseph Bruno in whose district 
the site is located. State Senator Bruno has also committed funds to 
purchase the adjacent property that will become Kate Mullany Park where 
trade union women pioneers will be honored.
    The purpose of this designation is to have the National Park 
Service provide technical assistance and advise on best ways to 
properly maintain the site. Bonnie Halda, Manager, Preservation 
Assistance Group, Northeast Region of the National Park Service visited 
the property on June 22 and commented very favorably on the site's 
potential.
    Development of the Kate Mullany Historic site has significant local 
and state support. I urge you to join me in recognizing Kate Mullany 
for her accomplishments and approve this legislation. Please feel free 
to contact me with any questions or concerns.
            Sincerely,
                                         Sherwood Boehlert,
                                     U.S. Representative, New York.
                                 ______
                                 
                                  The City of Troy,
                                       Office of the Mayor,
                                        Troy, NY, October 29, 2003.
Hon. Craig Thomas,
U.S. Senate, Dirksen Senate Office Building, Washington, DC.
    Dear Senator Thomas: I am writing to support approval of S. 1241, 
the ``Kate Mullany Historic Site Act'' which will be considered by the 
Senate Energy and Natural Resources Committee on Thursday, October 30 
at 10:00 a.m.
    The designation of the Kate Mullany House is important to Troy, the 
Capital District and New York State because it will bring important 
national attention to a site that is historically significant for the 
role played by Kate Mullany in the 1860s as a 19-year-old female Irish 
immigrant who led the first all female union in the United States and 
was the first woman to serve as an officer of a national union. She was 
recently inducted into the Women's Hall of Fame in Seneca Falls, New 
York. The Mullany House was declared a National Historic Landmark in 
1997 and was recently purchased by the American Labor Studies Center 
with funds provided by New York State Senate Majority Leader Joseph 
Bruno in whose district it is located. Senator Bruno has also committed 
funds to purchase the adjacent property that will become Kate Mullany 
Park and honor trade union women pioneers.
    The purpose of the designation is to have the National Park Service 
provide technical assistance and advise on best ways to properly 
interpret the site. Bonnie Halda, Manager, Preservation Assistance 
Group, Northeast Region of the National Park Service, visited the 
property on June 22 and commented very favorably on the site's 
potential.
    Development of the site has significant local and state support and 
we urge your approval of the legislation.
            Sincerely,
                                          Mark P. Pattison,
                                                             Mayor.
                                 ______
                                 
                                        The Senate,
                                         State of New York,
                                      Albany, NY, October 29, 2003.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Senator Thomas: I am writing to you for your support of S. 
1241, the ``Kate Mullany Historic Site Act,'' which will be considered 
by your Subcommittee on Thursday, October 30 at 10:00 a.m.
    The designation of the Kate Mullany House is important to Troy, the 
Capital District and New York State because it will bring important 
national attention to a site that is historically significant for the 
role played by Kate Mullauy in the 1860s as a 19-year-old female Irish 
immigrant who led the first all female union in the United States and 
was the first woman to serve as an officer of a national union. She was 
recently inducted into the women's Hall of Fame in Seneca Falls, New 
York. The Mullany House was declared a National Historic Landmark in 
1997.
    I am proud to have been able to support the Kate Mullany House by 
securing funds for the American Labor Studies Center to purchase the 
House. I am also in the process of obtaining funds which will be used 
to purchase the adjacent property that will become Kate Mullany Park 
and honor trade union women pioneers.
    The purpose of the designation is to have the National Park Service 
provide technical assistance and advise on best ways to properly 
interpret the site. Bonnie Halda, Manager, Preservation Assistance 
Group, Northeast Region of the National Park Service visited the 
property on June 22 and commented very favorably on the site's 
potential.
    Development of the site has significant local and state support and 
I would ask for your assistance in obtaining approval of this 
legislation. Thank you.
            Sincerely,
                                           Joseph L. Bruno,
                                        NYS Senate Majority Leader.
                                 ______
                                 
                     Congress of the United States,
                               Committee on Ways and Means,
                                  Washington, DC, October 30, 2003.
Hon. Craig Thomas, Chairman,
Hon. Daniel K. Akaka, Ranking Democratic Member,
Subcommittee on National Parks, Senate Committee on Energy and Natural 
        Resources, Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Thomas and Ranking Member Akaka: As the primary 
sponsor of H.R. 305, the House companion legislation to S. 1241, the 
Kate Mullany National Historic Site Act of 2003, I thank you very much 
for bringing this bill before the subcommittee for consideration today.
    I have introduced the Kate Mullany National Historic Site Act in 
each of the last four Congresses. I am most grateful to my good friend 
from New York, Senator Hillary Rodham Clinton, for introducing the 
Senate version earlier this year.
    Many historians refer to the city of Troy, New York, located in my 
congressional district in the Capital Region of New York State, as the 
``cradle of the Industrial Revolution'' for the important role it 
played in the development of the collar, cuff, and iron industries in 
the mid-19th century, and in the development of early men's and women's 
worker and cooperative organizations. At the heart of this city, at 350 
Eighth Street, sits a modest, three-story house--but what a story it 
has to tell. It is the only surviving structure associated with one of 
the American labor movement's earliest women leaders, Kate Mullany.
    Kate Mullany exemplifies the proud and rich history of both 
America's organized labor movement and America's women's rights 
movement. In the 1820s, local entrepreneurs established the nation's 
first commercial laundry in Troy to wash, starch, and iron a local 
invention, the ``detachable collar.'' By the 1860s, Troy supplied most 
of America with detachable collars and cuffs, employing over 3,700 
female launderers, starchers, and ironers. These women toiled in 
oppressive heat, working 14-hour days for $2 a week. When factory 
owners introduced new machinery that increased production but worsened 
working conditions, one of these young women stepped up and organized a 
union to demand change.
    That remarkable and courageous woman was a young, Irish, immigrant 
laundry worker named Kate Mullany. In February 1864, Mullany and 200 
other workers formed the first-of-its-kind, all-female Collar Laundry 
Union. The union went on strike and demanded a 25-cent raise. The 
laundry owners capitulated a week after the strike began.
    Under Mullany's leadership, the Collar Laundry Union, unlike most 
unions at the time, remained an organized force for years after its 
inception. The Collar Laundry Union remained active, often assisting 
other unions, and even attempting to establish an employee cooperative. 
Kate Mullany's hard work and commitment to fair treatment for workers 
earned her national recognition in 1868, when National Labor Union 
President William Sylvis made her the first female appointed to a labor 
union's national office.
    The New York State AFL-CIO stands ready to capitalize upon the 
building's rich history by establishing the American Labor Studies 
Center (ALSC) at the Mullany House. The ALSC will interpret the 
connections between immigration and the industrialization of our 
Nation, including the history of Irish immigration, women's history, 
and worker history.
    Thanks to the excellent leadership of Denis Hughes, Paul Cole, and 
their colleagues at the New York State AFL-CIO, efforts to establish 
the ALSC have already gained significant momentum. The New York State 
AFL-CIO purchased the Mullany House earlier this year, and is in the 
process of acquiring an adjacent park, which will become a memorial 
park honoring female labor pioneers. Passage of S. 1241, to establish 
the Mullany home as the Kate Mullany National Historic Site, is 
essential to continuing this effort.
    I strongly encourage the subcommittee, and the full committee, to 
preserve the home of female labor pioneer Kate Mullany for the benefit, 
inspiration, and education of the people of the United States of 
America by favorably reporting S. 1241.
            Sincerely,
                                        Michael R. McNulty,
                                                Member of Congress.
                                 ______
                                 
                     Congress of the United States,
                                  House of Representatives,
                                  Washington, DC, October 28, 2003.
Hon. Craig Thomas,
Dirksen Senate Office Building, Washington, DC.
    Dear Senator Thomas: I am writing in support of S. 1241, the Kate 
Mullany Historic Site Act, which will be considered by the Senate 
Energy and Natural Resources Committee on Thursday, October 30 at 10:00 
AM.
    The designation of the Kate Mullany House is important to Troy, the 
Capital District and New York State, because it will bring national 
attention to a site that is historically significant for the role 
played by Kate Mullany. In the 1860s, Kate Mullany, a 19-year-old 
female Irish immigrant who led the first all female union in the United 
States, was the first woman to serve as an officer of a national union. 
She was recently inducted into the Women's Hall of Fame in Seneca 
Falls, New York. The Mullany House was declared a National Historic 
Landmark in 1997 and was recently purchased by the American Labor 
Studies Center with funds provided by New York State Senate Majority 
Leader Joseph Bruno in whose district it is located. Senator Bruno has 
also committed funds to purchase the adjacent property that will become 
Kate Mullany Park and honor trade union women pioneers.
    The purpose of the designation is to have the National Park Service 
provide technical assistance and advise on best ways to properly 
interpret the site. Bonnie Halda, Manager, Preservation Assistance 
Group, Northeast Region of the National Park Service, visited the 
property on June 22 and commented very favorably on the site's 
potential.
    Development of the site has significant local and state support and 
we urge your approval of the legislation.
            Sincerely,
                                           John E. Sweeney,
                                                Member of Congress.
                                 ______
                                 
                     Congress of the United States,
                                  House of Representatives,
                                  Washington, DC, October 29, 2003.
Hon. Craig Thomas,
Dirksen Senate Office Building, Washington, DC.
    Dear Senator: I am writing to support approval of S. 1241, the 
``Kate Mullany Historic Site Act,'' which will be considered by the 
Senate Energy and Natural Resources Committee on Thursday, October 30 
at 10:00 AM.
    The designation of the Kate Mullany House is important to Troy, the 
Capital District and New York State, because it will bring important 
national attention to a site that is historically significant for the 
role played by Kate Mullany in the 1960s as a 19-year-old female Irish 
immigrant who led the first all female union in the United States and 
was the first woman to serve as an officer of a national union. She was 
recently inducted into the Women's Hall of Fame in Seneca Falls, New 
York. The Mullany House was declared a National Historic Landmark in 
1997 and was recently purchased by the American Labor Studies Center 
with funds provided by New York State Senate Majority Leader Joseph 
Bruno, in whose district it is located.
    The purpose of the designation is to have the National Park Service 
provide technical assistance and advise on best ways to properly 
interpret the site. Bonnie Halda, Manager, Preservation Assistance 
Group, Northeast Region of the National Park Service, visited the 
property on June 22 and commented very favorably on the site's 
potential,
    Development of the site has significant local and state support and 
we urge your approval of the legislation.
            Very truly yours,
                                                Jack Quinn,
                                                Member of Congress.
                                 ______
                                 
                                    New York State AFL-CIO,
                                    New York, NY, October 27, 2003.
Hon. Craig Thomas,
U.S. Senate, Dirksen Senate Office Building, Washington, DC.
    Dear Senator Thomas: I am writing to support approval of S. 1241, 
the ``Kate Mullany Historic Site Act,'' which will be considered by the 
Senate Energy and Natural Resources Committee on Thursday, October 30 
at 10:00 AM.
    The designation of the Kate Mullany House is important to Troy, the 
Capital District and New York State because it will bring important 
national attention to a site that is historically significant for the 
role played by Kate Mullany in the 1860s as a 19-year-old female Irish 
immigrant who led the first all-female union in the United State and 
was the first woman to serve as an officer of a national union. She was 
recently inducted into the Women's Hall of Fame in Seneca Falls, New 
York. The Mullany House was declared a National Historic Landmark in 
1997 and was recently purchased by the American Labor Studies Center 
with funds provided by New York State Senate Majority Leader Joseph 
Bruno in whose district it is located. Senator Bruno has also committed 
funds to purchase the adjacent property that will become Kate Mullany 
Park and honor trade union women pioneers.
    The purpose of the designation is to have the National Park Service 
provide technical assistance and advise on best ways to properly 
interpret the site. Bonnie Halda, Manager, Preservation Assistance 
Group, Northeast Region of the National Park Service visited the 
property on June 22 and commented very favorably on the site's 
potential.
    Development of the site has significant local and state support and 
we urge your approval of the legislation.
            Sincerely,
                                           Denis M. Hughes,
                                                         President.
                            New York State United Teachers,
                                      Latham, NY, October 29, 2003.
    Hon. Craig Thomas,
U.S. Senate, Dirksen Senate Office Building, Washington, DC.
    Dear Senator Thomas: I am writing to support approval of S. 1241, 
the ``Kate Mullany Historic Site Act,'' which will be considered by the 
Senate Energy and Natural Resources Committee on Thursday, October 30 
at 10:00 a.m.
    The designation of the Kate Mullany House is important to Troy, the 
Capital District and New York State because it will bring important 
national attention to a site that is historically significant for the 
role played by Kate Mullany in the 1860s as a 19-year-old female Irish 
immigrant who led the first all-female union in the United States and 
was the first woman to serve as an officer of a national union. She was 
recently inducted into the Women's Hall of Fame in Seneca Falls, New 
York. The Mullany House was declared a National Historic Landmark in 
1997 and was recently purchased by the American Labor Studies Center 
with funds provided by New York State Senate Majority Leader Joseph 
Bruno in whose district it is located. Senator Bruno has also committed 
funds to purchase the adjacent property that will become Kate Mullany 
Park and honor trade union women pioneers.
    The purpose of the designation is to have the National Park Service 
provide technical assistance and advise on best ways to property 
interpret the site. Bonnie Halda, Manager, Preservation Assistance 
Group, Northeast Region of the National Park Service, visited the 
property on June 22 and commented very favorably on the site's 
potential.
    Development of the site has significant local and state support and 
we urge your approval of the legislation.
            Sincerely,
                                     Thomas Y. Hobart, Jr.,
                                                         President.
                                 ______
                                 
  Statement of GoGo Ferguson, Cumberland Island Preservation Society, 
                         Cumberland Island, GA
    I am fifth generation on Cumberland Island. I have watched many of 
the historic structures listed on the National Register fall in from 
demolition by neglect. Greyfield Inn on Cumberland Island was my home 
for many years; it is now a small inn and a very successful example of 
an adaptive use of a structure within a national park. It provides an 
experience for those who cannot or do not want to camp in a park, as 
well as the ability to educate themselves to the rich cultural and 
natural history through our naturalists.
    Many of our guests are elder hostel groups or families who could 
notexperience this national park without the educational tour by 
Greyfield Inn's naturalists. My family helped create this park with the 
vision of all being able to experience the incredible human history 
that had the wisdom and long-term vision to protect the land. This did 
not come without a great deal of sacrifice and work on the part of 
many. The legislative agreements made at the establishment of the 
seashore between the NPS and those people existing prior to the parks 
creation, otherwise known as ``traditional people'' should be honored.
    This park (the young, the elderly, those who have descendants 
buried here, those who wish to see the Settlement and the First African 
Baptist Church, and those who want to see the spectacular architectural 
design of Plum Orchard mansion) should be able to. It is allowed in 
many other parks and it is of no impact to the surrounding wilderness 
here.
    I strongly support this bill as a solution to manage this park in 
the spirit of which it was given and to allow access for all to the 
natural and historic sites. It will be impossible for the park to 
properly access and maintain their obligation to these historic sites.
                                 ______
                                 
   Statement of Georgia Forest Watch; Georgia Chapter, Sierra Club; 
Georgia Chapter, Wilderness Watch; Georgia Center for Law in the Public 
Interest; Coosa River Basin Initiative; Canoochee Riverkeeper; National 
 Parks Conservation Association; The Wilderness Society; Center for a 
   Sustainable Coast; Chattooga Conservancy; American Hiking Society
    Dear Member of the Senate Energy and Natural Resources Committee:
    Georgia Senators Saxby Chambliss and Zell Miller have introduced 
the Cumberland Island National Seashore Wilderness Boundary Act of 2003 
(S. 1462) that would in large measure destroy the Cumberland Island 
Wilderness Area by undesignating the existing wilderness, then ``re-
establishing'' the wilderness with corridors for motorized access and 
with large natural and historical areas open to development. S. 1462 is 
an unprecedented gutting of a unit in the National Wilderness 
Preservation System. Currently, only a handful of island residents have 
valid access rights and are legally allowed to drive the primitive 
roads through the wilderness and potential wilderness areas. These 
rights are designed to phase out over time. All development on the 
island is prohibited. The proposed bill eliminates these protections, 
and opens the wilderness, in perpetuity, to government vehicles, 
commercial tours, and unmitigated development. We ask that you oppose 
this ill-conceived legislation.
    Cumberland is the largest undeveloped barrier island and is unique 
on the east coast. In 1972, Congress set aside the island as a national 
seashore, declaring that it ``shall be permanently preserved in its 
primitive state.'' It is one of only six National Park Service 
wilderness areas in the eastern United States, and one of only a 
handful of United Nations International Biosphere Reserves. It offers 
tremendous opportunities for a rich natural and historical experience. 
An unspoiled beach of white sands stretches 17 miles along its eastern 
shore, giving way to rows of sand dunes, uplands of saw palmetto, 
forests of yellow pine and live oak, and flats of salt marsh and tidal 
creeks. The only primary road on the island is a primitive, one-lane 
dirt road called the Main Road, which runs south-to-north with only a 
few primitive spur roads connecting to it.
    There are many problems with S. 1462. The bill calls for the 
undesignation of hundreds of acres of wilderness that will split this 
already small wilderness area in two, having impacts that will reach 
far beyond the corridors and areas that the bill seeks to undesignate. 
S. 1462 would cut a permanent motorized ``loop'' through the heart of 
this already modest wilderness area. The bill will allow special 
interests to profit at the public's expense. The bill will open the 
north end of the island to development.
    In sum, this bill will undermine more than 30 years of public and 
private efforts to preserve Cumberland in a primitive state. Congress 
should soundly reject it. Please support America's Wilderness legacy 
and oppose S. 1462.
    We thank you for your attention to this important matter.
                                 ______
                                 
        Statement of Richard Moe, President, the National Trust 
                       for Historic Preservation
    Thank you, Mr. Chairman and members of the Subcommittee, for this 
opportunity to submit remarks on behalf of the National Trust for 
Historic Preservation concerning the Cumberland Island National 
Seashore Wilderness Boundary Act of 2003, S. 1462. Let me begin by 
commending Senators Chambliss and Miller for developing a bill that 
would strike a reasonable compromise between the need to protect 
Cumberland Island's rich inventory of natural resources with necessary 
access to its diverse historic treasures. By amending the wilderness 
boundaries created in 1982, the Senate would be taking a major step 
forward in resolving twenty years of conflict between the goals of 
wilderness protection and historic preservation. S. 1462 clearly shows 
that these goals need not be mutually exclusive.
    For more than 50 years, the National Trust has been helping to 
protect the nation's historic resources. As a private nonprofit 
organization with more than a quarter million members, the National 
Trust is the leader of a vigorous preservation movement that is saving 
the best of our past for the future. The need for the National Trust 
has increased since its founding in 1949 just as the need for 
wilderness areas has also grown. But when limitations on access result 
in the deterioration and neglect of historic buildings and sites, we 
not only stand to lose a part of our past forever, we also miss the 
opportunity to let history come alive through experiencing its tangible 
legacy. Access to historic resources is an integral part of their 
proper interpretation and ongoing stewardship.
    Cumberland Island unquestionably ranks among the nation's most 
stunning unspoiled natural areas, but there are portions of this 
10,000-acre wilderness designation that could never fit the Wilderness 
Act's statutory definition of ``undeveloped'' and [devoid of] 
``permanent improvement or human habitation.'' The Interior Department 
noted this dichotomy way back when the original bill that created the 
area was signed into law. The major problem in including historic 
resources and the roads that lead to them within the boundaries of the 
wilderness area is that it prohibits motor vehicles and certain 
maintenance equipment from getting to those places.
    When Europeans first explored the Island in the 1500s, the Timmucan 
Indians were already well established there as the ancient shell mounds 
indicate. We know that missionaries from Spain arrived to evangelize 
the Native American population and built a settlement there in 1595, 
but restricted access to archeological sites hampers a greater 
understanding of the Spanish legacy. James Ogelthorpe founded Fort 
Prince William there in 1736, the southernmost occupied site in what 
would become the original thirteen colonies. An historic African-
American community with an adjacent cemetery provides us with an 
important link to the slaves that once occupied the island. S. 1462 
would simply make these places easier to get to so that they could be 
appreciated by a wider audience and investigated more fully.
    Lastly, there is Georgia's largest historic house, the 1898 Plum 
Orchard donated to the National Park Service in 1970 along with 12 
acres for a National Seashore. Here, access restrictions pose a threat 
to the preservation of noteworthy intact structures themselves. Because 
of the restrictions the wilderness designation places on the road 
leading to the building, the NPS has found it extremely difficult to 
perform its duties related to maintaining and preserving the historic 
fabric. In September, the World Monuments Fund listed the Plum Orchard 
Historic District among only a handful of American locations on its 
2004 list of 100 Most Endangered Sites.
    The Park Service, for example, has struggled to comply with its 
mandate under the Historic Preservation Act to maintain approximately 
25 designated historic structures that fall within the wilderness area, 
but the Wilderness Act prohibits the needed access to do the work 
successfully. Furthermore, some of the more innovative preservation 
approaches that the Park Service has explored to save Plum Orchard and 
allow it to benefit from increased visitorship have failed due to lack 
of access. At the most basic level, the necessary vehicles and 
equipment to preserve and maintain historic buildings need a way to get 
there. Moreover, not only should sites of historic value be open to 
public visitorship for their educational value, but in certain 
instances they engender public/private partnerships that go a long way 
to foster maintenance and upkeep. Cumberland Island is no exception.
    The Chambliss Miller bill would amend Cumberland Island Wilderness 
Area's boundaries to ensure the future protection of natural resources 
and allow practical considerations for historic preservation. The 
measure would remove the 200-year-old, National Register listed ``Grand 
Avenue,'' the principal road, from the wilderness designation so that 
visitors could again enjoy easy assess to the Plum Orchard and High 
Point Historic Districts. Now, only a twice monthly ferry offers 
expensive limited access to these locations, a 24-mile round trip hike 
from the National Seashore. Two other lesser roads would also be 
removed from the wilderness area to provide the only access to the 
African-American Settlement, Native American shell mounds, and 
potential archeological resources of the former mission and fort sites. 
The National Trust applauds the way in which the S. 1462 would take 
great care to lessen any effect on removing the roads from the 
wilderness area by adding 210 new acres to the designation.
    Mr. Chairman and members of the Subcommittee, The National Trust 
strongly supports S. 1462 along with the National Park Service, the 
Georgia Trust for Historic Preservation, and the Cumberland Island 
Historic Foundation. The bill before your consideration today is a 
compromise that would balance the need to safeguard the natural 
environment of one of the world's largest barrier islands with the 
historic preservation of the structures and sites located therein. 
Managing most of the island with wilderness area goals is important to 
protecting its future, but meeting these goals at the expense of 
cultural or historic resources is-not what Congress intended in passing 
the Wilderness Act. Greater access that provides targeted locations the 
benefit of the vehicles and equipment necessary for maintenance, 
interpretation, and public benefit will ensure that Cumberland Island's 
treasures--both natural and man-made--will be protected for future 
generations.

                                    

      

</pre></body></html>
